UNITED STATES MARSHALS SERVICE

 ANNUAL FINANCIAL STATEMENTS

       FISCAL YEAR 2011

         U.S. Department of Justice

       Office of the Inspector General

                Audit Division


            Audit Report 12-15

              February 2012

           UNITED STATES MARSHALS SERVICE

            ANNUAL FINANCIAL STATEMENTS

                  FISCAL YEAR 2011


              OFFICE OF THE INSPECTOR GENERAL

                 COMMENTARY AND SUMMARY


       This audit report contains the Annual Financial Statements of the
United States Marshals Service (USMS) for the fiscal years (FY) ended
September 30, 2011, and September 30, 2010. Under the direction of the
Office of the Inspector General (OIG), Cotton & Company LLP performed
USMS’s audit in accordance with U.S. generally accepted government
auditing standards. The audit resulted in an unqualified opinion on the
FY 2011 financial statements. An unqualified opinion means that the
financial statements present fairly, in all material respects, the financial
position and the results of the entity’s operations in conformity with
U.S. generally accepted accounting principles. For FY 2010, the USMS also
received an unqualified opinion on its financial statements (OIG Report
No. 11-10).

       Cotton & Company LLP also issued reports on internal control over
financial reporting and on compliance and other matters. The auditors
identified one material weakness in internal control in the FY 2011
Independent Auditors’ Report on Internal Control over Financial Reporting.
The material weakness related to inadequate funds management controls.
Financial and compliance controls are not adequate to ensure that obligation
transactions are executed and recorded in accordance with laws and
regulations, and that related undelivered orders and accounts payable
balances are accurate and complete.

      Additionally, in the FY 2011 Independent Auditors’ Report on
Compliance and Other Matters, the auditors noted that USMS’s financial
management systems did not substantially comply with federal financial
management system requirements and applicable federal accounting
standards as required by the Federal Financial Management Improvement
Act of 1996.

      The OIG reviewed Cotton & Company LLP’s reports and related
documentation and made necessary inquiries of its representatives. Our
review, as differentiated from an audit in accordance with U.S. generally
accepted government auditing standards, was not intended to enable us to
express, and we do not express, an opinion on USMS’s financial statements,



                                     -i-
conclusions about the effectiveness of internal control, conclusions on
whether USMS’s financial management systems substantially complied with
the Federal Financial Management Improvement Act of 1996, or conclusions
on compliance with laws and regulations. Cotton & Company LLP is
responsible for the attached auditors’ reports dated November 8, 2011, and
the conclusions expressed in the reports. However, our review disclosed no
instances where Cotton & Company LLP did not comply, in all material
respects, with U.S. generally accepted government auditing standards.




                                   - ii -
               UNITED STATES MARSHALS SERVICE 

                ANNUAL FINANCIAL STATEMENTS

                      FISCAL YEAR 2011 


                          TABLE OF CONTENTS


                                                                             PAGE


MANAGEMENT'S DISCUSSION AND ANALYSIS......................................... 3


INDEPENDENT AUDITORS’ REPORTS


  REPORT ON FINANCIAL STATEMENTS ............................................... 21


  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING ........... 23


  REPORT ON COMPLIANCE AND OTHER MATTERS................................ 33


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


  CONSOLIDATED BALANCE SHEETS................................................... 37


  CONSOLIDATED STATEMENTS OF NET COST ..................................... 38


  CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION ............ 39


  COMBINED STATEMENTS OF BUDGETARY RESOURCES ....................... 40


  NOTES TO THE PRINCIPAL FINANCIAL STATEMENTS .......................... 41


REQUIRED SUPPLEMENTARY INFORMATION


  COMBINING STATEMENTS OF BUDGETARY RESOURCES...................... 63


APPENDIX


  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY

    OF ACTIONS NECESSARY TO CLOSE THE REPORT.......................... 67

This page left intentionally blank.
	
U.S. DEPARTMENT OF JUSTICE


UNITED STATES MARSHALS SERVICE



  MANAGEMENT’S DISCUSSION AND ANALYSIS

              (UNAUDITED)




                  -1-
This page left intentionally blank.
	




               -2-
                                          U.S. Department of Justice 

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


The United States Marshals Service (USMS) is the nation’s oldest Federal law enforcement agency
and operates under very broad statutory authorities (28 U.S.C. 564 and 566). These authorities
provide the USMS with a great deal of discretion in performing its complex missions. All of the
USMS duties and responsibilities emanate from these statutory authorities.

MISSION
The mission of the USMS is to ensure that the Federal judicial process functions in a fair and
efficient manner. To execute this mission, the USMS organizes its workload and allocates
resources into five mission areas:
   	 Judicial and Courthouse Security – The USMS protects Federal judges, jurors, and other
        participants in the Federal judicial process. This mission encompasses personnel security
        (security protective detail for a judge or prosecutor) and building security (security
        equipment to monitor and protect a Federal courthouse facility). The USMS assesses and
        investigates all inappropriate communication and threats to the Federal judiciary. The
        USMS also participates on Joint Terrorism Task Forces and shares threat intelligence
        information with other agencies.
   	 Fugitive Apprehension – The USMS is authorized to locate and apprehend Federal, state,
        and local fugitives both within and outside the U.S. under 28 U.S.C. 566(e)(1)(B). Fugitive
        apprehension includes warrants involving: escaped Federal prisoners; Federal probation,
        parole and bond default violators; and fugitives based on warrants generated during drug
        investigations. This mission also includes investigating and apprehending those who violate
        the Adam Walsh Child Protection and Safety Act.
   	 Prisoner Security and Transportation – The USMS is responsible for processing
        prisoners in the cellblock, providing security for the cellblock area, transporting prisoners by
        ground or air, and inspecting non-Federal jails used to house Federal detainees. The USMS
        is responsible for producing in-custody prisoners for court proceedings, which involves
        moving prisoners between judicial districts and detention facilities.
   	 Protection of Witnesses – The USMS provides for the security, health and safety of
        protected government witnesses and their immediate dependents whose lives are in danger
        as a result of their testimony against drug traffickers, terrorists, organized crime members,
        and other major criminals.
   	 Tactical Operations – The USMS conducts special missions in situations involving crisis
        response, homeland security, and other national emergencies requiring a coordinated tactical
        response.
USMS missions comprise crosscutting activities that are implemented throughout the country and
several foreign office locations. USMS missions correspond with all three Department of Justice
(DOJ) strategic goals as described in DOJ’s FY 2007-2012 Strategic Plan.

ORGANIZATION STRUCTURE
The USMS headquarters (HQ) is located in Arlington, Virginia, with 94 district offices operating in
over 400 Federal courts and other locations throughout the United States and its territories. The
USMS organizational chart and district office locations are contained in Attachments 1 and 2.
Specific courthouse locations can be found on the USMS internet web site at:



United States Marshals Service
                                                 -3-
                                          U.S. Department of Justice 

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


www.usmarshals.gov. The decentralized organizational structure ensures that the USMS is able to
respond to law enforcement challenges in an efficient and effective manner.

FINANCIAL STRUCTURE
The financial structure of the USMS is decentralized, allowing each district and HQ program office
to exercise control over its respective budgetary accounts. The Financial Services Division (FSD)
at HQ assists district and HQ program offices by providing oversight and monitoring of
commitments, obligations, payments, outlays and budget allocations. The USMS reports on the
following accounts:
Salaries and Expenses Appropriation (S&E)
The USMS S&E Appropriation is used for necessary general operating expenses. This funding
encompasses payroll, rent, utilities, travel, supplies, and equipment purchases. Funding is
appropriated by Congress on an annual basis and, within the amounts made available to the USMS,
may include specific no-year or multi-year budget authority. Once enacted, funds are apportioned
by the Office of Management and Budget (OMB) and DOJ to the USMS.
Construction Appropriation
The Construction Appropriation is a no-year account that is appropriated annually to the USMS. In
FY 2010, the USMS received multi-year funding in addition to the no-year account. In FY 2011,
the USMS began using additional Southwest Border multi-year construction funding. This funding
is to plan, construct, renovate, equip, and maintain any space controlled, occupied, or utilized by the
USMS in U.S. courthouses and other buildings. Once enacted, funds are apportioned by OMB and
DOJ to the USMS.
Justice Prisoner and Alien Transportation System Revolving Fund
The Justice Prisoner and Alien Transportation System (JPATS) was established in 1995 by
combining the aircraft fleets of several DOJ components. Initially this program was funded within
the USMS S&E Appropriation. In 1998, OMB established the JPATS Revolving Fund in order to
finance flight operations and maintenance through customer funding rather than by direct
appropriations. In FY 2010, the Federal Bureau of Prisons (BOP), the Office of the Federal
Detention Trustee (OFDT), and the Department of Homeland Security (DHS) Immigration and
Customs Enforcement (ICE) were the three primary Federal customers who were billed based on
flight hours utilized. In FY 2011, ICE ended its participation in JPATS. The USMS transportation
requirements are funded using annual reimbursable agreements between the USMS and OFDT.
OFDT’s funding source is its Detention Appropriation.
Reimbursable Agreement Authority with OFDT
OFDT was established in 2003 as an oversight organization responsible for coordinating detention
and transportation requirements on behalf of the DOJ. OFDT issues detention funding to the USMS
through reimbursable agreements, using OFDT's Detention Appropriation. The Detention
Appropriation is a no-year authority that is appropriated annually by Congress to the OFDT.
Allocation Transfer Authority from the Administrative Office of the U.S. Courts (AOUSC)
AOUSC receives an annual Court Security Appropriation that includes allocation transfer authority
to the USMS. AOUSC transfers funds to the USMS each year using a non-expenditure transfer
authorization (SF-1151). The funds are used to pay the wages, supplies, and equipment for Court
Security Officers (CSO) who provide security at Federal courthouses and other facilities that have


United States Marshals Service
                                                -4-
                                          U.S. Department of Justice 

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


Federal court operations. Funds are also used to obtain and install security equipment to screen and
monitor visitors and packages that enter Federal courthouses.

ANALYSIS OF FINANCIAL STATEMENTS
Assets: The USMS’s Balance Sheet as of September 30, 2011 shows $1,013.8 million in total
assets, a decrease of $98.7 million (8.9%) over the previous year’s total assets of $1,112.5 million.
The largest assets include Fund Balance with U.S. Treasury (FBWT) and General Property, Plant,
and Equipment in the combined amounts of $826.5 million and $942.6 million as of September 30,
2011 and 2010, respectively. This comprised 81.5% and 84.7% of total assets as of September 30,
2011 and 2010, respectively.
The FBWT represents all funds the USMS has on account with the U.S. Treasury to make
expenditures and pay liabilities. These funds are expended to support numerous programs and
activities so that the USMS may accomplish its primary mission of protecting the Federal judicial
process.
The General Property, Plant, and Equipment net balance represents property and leasehold
improvement items with a cost basis greater than $25,000 ($100,000 for airplanes and leasehold
improvements) less accumulated depreciation/amortization. As of September 30, 2011, the General
Property, Plant, and Equipment net balance was $264.2 million. As of September 30, 2010, the
General Property, Plant, and Equipment net balance was $257.9 million.
Liabilities: Total USMS liabilities were $591.6 million as of September 30, 2011, a decrease of
$55.0 million (8.5%) over the previous year’s total liabilities of $646.6 million. The largest liability
is Accounts Payable with the Public, which equaled $354.2 million and $406.3 million, as of
September 30, 2011 and 2010, respectively. This comprised 59.9% and 62.8% of total liabilities, as
of September 30, 2011 and 2010, respectively. The USMS provides secure confinement and
housing at non-Federal (state, local, and private) detention facilities for Federal prisoners prior to
judicial proceedings. Accounts Payable with the Public are impacted by the fluctuation of the
Federal prisoner population housed at these facilities.
Net Cost of Operations: The USMS’s Statement of Net Cost presents the gross and net cost by
strategic goal. The net cost of USMS operations totaled $1,627.8 million for the year ended
September 30, 2011, an increase of $115.7 million (7.6%) from the previous year’s net cost of
operations of $1,512.1 million. The increase is primarily due to the higher costs associated with
housing, transporting, and providing medical care for prisoners that were in USMS custody prior to
final sentencing.
Budgetary Resources: The USMS’s FY 2011 Statement of Budgetary Resources shows $3,322.8
million in total budgetary resources, an increase of $57.3 million (1.8%) from the previous year’s
total budgetary resources of $3,265.5 million. The increase is primarily due to the increased cost of
doing business as well as increased reimbursable appropriations.
Net Outlays: The USMS’s FY 2011 Statement of Budgetary Resources shows $1,654.8 million in
net outlays, an increase of $260.8 million (18.7%) from the previous year’s total net outlays of
$1,394.0 million. The increase is primarily a result of increased outlays for prisoner costs as well as
the increase in the costs of doing business in FY 2011.




United States Marshals Service
                                                 -5-
                                                 U.S. Department of Justice 

                                               United States Marshals Service

                                        Management’s Discussion and Analysis (Unaudited)


                                         Table 1. Source of the USMS Resources
                                                 (Dollars in Thousands)

                              Source                                  FY 2011        FY 2010       Change%

Earned Revenue                                                        $1,583,960     $1,514,103             4.6%

Budgetary Financing Sources

 Appropriations Received                                               1,142,388      1,190,039            -4.0%

 Appropriations Transferred-In/Out                                      388,191        393,936             -1.5%

 Other Adjustments and Other Budgetary Financing Sources                   (2,285)             0   Not Applicable

Other Financing Sources

 Transfers-In/Out Without Reimbursement                                       162          186            -12.9%

 Imputed Financing From Costs Absorbed by Others                           55,646       38,441             44.8%

Total                                                                 $3,168,062     $3,136,705             1.0%


                                        Table 2. How USMS Resources are Spent
                                                  (Dollars in Thousands)

                       Strategic Goal (SG)                            FY 2011        FY 2010       Change%

SG 1. Prevent Terrorism and Promote the Nation’s Security
                                                        Gross Cost         $6,484       $5,159
                                             Less: Earned Revenue                -             -
                                                           Net Cost        $6,484       $5,159             25.7%

SG 2. Prevent Crime, Enforce Federal Laws, and Represent the
Rights and Interests of the American People
                                                        Gross Cost      $30,396         $4,872
                                             Less: Earned Revenue                -             -
                                                           Net Cost     $30,396         $4,872           523.9%

SG 3. Ensure the Fair and Efficient Administration of Justice
                                                        Gross Cost    $3,174,846     $3,016,174
                                             Less: Earned Revenue      1,583,960      1,514,103
                                                           Net Cost   $1,590,886     $1,502,071             5.9%


                                                 Total Gross Cost     $3,211,726     $3,026,205
                                       Less: Total Earned Revenue      1,583,960      1,514,103
                                       Total Net Cost of Operations   $1,627,766     $1,512,102             7.6%




United States Marshals Service
                                                           -6-
                                          U.S. Department of Justice 

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)



2011 FINANCIAL HIGHLIGHTS
The DOJ FY 2007-2012 Strategic Plan includes three strategic goals. The USMS receives funding
through direct appropriations (S&E and Construction), transfers from AOUSC and others, and a
variety of reimbursable sources that support the following three strategic goals:
Strategic Goal 1, Prevent Terrorism and Promote the Nation’s Security, includes activities that
strengthen partnerships to prevent, deter, and respond to terrorist incidents. The Goal 1 costs
include payroll and operating costs for the Office of Protective Intelligence (OPI) and payroll costs
for deputies working with the Federal Bureau of Investigation (FBI) Joint Terrorism Task Forces.
The USMS expended net program costs of $6.5 million for the fiscal year ending September 30,
2011 and $5.2 million for the fiscal year ending September 30, 2010 on Strategic Goal 1.
Strategic Goal 2, Prevent Crime, Enforce Federal Laws, and Represent the Rights and
Interests of the American People, includes activities related to fugitive investigation and
apprehension efforts that prevent, suppress, and intervene in crimes against children. When the
Adam Walsh Child Protection and Safety Act was enacted in 2006, the Attorney General gave the
USMS primary enforcement responsibility. The Goal 2 costs include payroll and operating costs
related to the Sex Offender Apprehension Program (SOAP). The USMS expended net program
costs of $30.4 million for the fiscal year ending September 30, 2011 and $4.9 million for the fiscal
year ending September 30, 2010 on Strategic Goal 2. The increase of $25.5 million is due to
additional SOAP mission focus in FY 2011 and the related organizational and structural costs
realized by the USMS.
Strategic Goal 3, Ensure the Fair and Efficient Administration of Justice, includes activities
that protect the Federal judiciary and other participants in Federal proceedings, and ensure the
apprehension of fugitives from justice. The USMS expended net program costs of $1,590.9 million
for the fiscal year ending September 30, 2011 and $1,502.1 million for the fiscal year ending
September 30, 2010 on Strategic Goal 3.

PERFORMANCE INFORMATION
Data Reliability and Validity
The USMS views data reliability and validity as critically important to plan and assess performance.
As such, this document includes a discussion of data validation, verification, and any identified data
limitations for each performance measure presented. The USMS ensures that data reported meets
the following criteria:

               At a minimum, performance data are considered reliable if transactions
               and other data that support reported performance measures are properly
               recorded, processed, and summarized to permit the preparation of
               performance information in accordance with criteria stated by
               management. Performance data need not be perfect to be reliable,
               particularly if the cost and effort to secure the best performance data
               possible will exceed the value of any data so obtained.




United States Marshals Service
                                                -7-
                                          U.S. Department of Justice 

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


FY 2011 REPORT ON SELECTED RESULTS
The USMS performance measure, “Ensure Judicial Proceedings are not Interrupted due to
Inadequate Security,” supports two DOJ strategic goals. This measure will be replaced in FY 2012
with a new measure. The two strategic goals are:

STRATEGIC GOAL 1: Prevent Terrorism and Promote the Nation’s Security – Less than 1%
of the USMS Net Costs support this Goal. The programs that support this goal are Protective
Intelligence and Joint Terrorism Task Forces.

     STRATEGIC OBJECTIVE 1.2: Strengthen partnerships to prevent, deter, and respond to
     terrorist incidents.

STRATEGIC GOAL 3: Ensure the Fair and Efficient Administration of Justice – Nearly 98%
of the USMS Net Costs support this Goal. The programs that support this goal are Judicial and
Courthouse Security, Prisoner Security and Transportation, Protection of Witnesses, and Tactical
Operations.

     STRATEGIC OBJECTIVE 3.1: Protect judges, witnesses, and other participants in Federal
     proceedings, and ensure the appearance of criminal defendants for judicial proceedings or
     confinement.

PROGRAMS (Protective Intelligence, Joint Terrorism Task Forces, Judicial and Courthouse
Security, Prisoner Security and Transportation, Protection of Witnesses, and Tactical
Operations):

Background/Program Objectives: The USMS maintains the integrity of the Federal judicial
process by: 1) ensuring that each Federal judicial facility is physically safe and free from any
intrusion intended to subvert court proceedings; 2) guaranteeing that all Federal judges, prosecutors,
government witnesses, jurors, and other participants are secure during court proceedings; and
3) maintaining the custody, protection and safety of prisoners brought to court for any type of
criminal court proceeding. The USMS measures the number of judicial proceedings that are
interrupted due to inadequate security.




United States Marshals Service
                                                -8-
                                           U.S. Department of Justice 

                                         United States Marshals Service

                                  Management’s Discussion and Analysis (Unaudited)


                                   Table 3. Performance Measure 

         Ensure Judicial Proceedings are not Interrupted due to Inadequate Security*

                                   Number of Judicial Proceedings
                                    Interrupted Due to Inadequate
                                               Security
                                 FY 2002 Actual Performance:    N/A
                                 FY 2003 Actual Performance:      1
                                 FY 2004 Actual Performance:      0
                                 FY 2005 Actual Performance:      0
                                 FY 2006 Actual Performance:      0
                                 FY 2007 Actual Performance:      2
                                 FY 2008 Actual Performance:      1
                                 FY 2009 Actual Performance:      2
                                 FY 2010 Actual Performance:      0
                                 FY 2011 Target Performance:      0
                                 FY 2011 Actual Performance:      0
                    * This measure will be replaced in FY 2012 with a new measure.
Discussion of FY 2011 Results: The USMS met its FY 2011 target of zero interrupted judicial
proceedings.
Data Definition: An “interruption” occurs when a judge is removed from the courtroom as a result
of a potentially dangerous incident or when court proceedings are suspended until additional Deputy
U.S. Marshals are assigned to guarantee the safety of the judge, witness, and other participants.
Data Collection and Storage: The USMS Communications Center collects Weekly Activity
Reports and Incident Reports from the districts. These reports have been collected by the USMS
Communications Center via email since FY 2003.
Data Validation and Verification: Before data is disseminated agency-wide, the USMS
Communications Center verifies the information with HQ operational program managers to ensure
accuracy.
Data Limitations: This measure was not tracked or reported until FY 2003.




United States Marshals Service
                                                -9-
                                          U.S. Department of Justice 

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


The USMS performance measure “Number and percent of primary Federal felony fugitives
apprehended or cleared” supports two DOJ strategic goals. (Note: The title of this performance
measure has been refined to match USMS Budget Submissions.) The two strategic goals are:
STRATEGIC GOAL 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and
Interests of the American People – Nearly 2% of the USMS Net Costs support this Goal. The
program that supports this goal is the Sex Offender Apprehension Program.

     STRATEGIC OBJECTIVE 2.3: Prevent, suppress, and intervene in crimes against
     children.

STRATEGIC GOAL 3: Ensure the Fair and Efficient Administration of Justice – Nearly 98%
of the USMS Net Costs support this Goal. The program that supports this goal is the Fugitive
Apprehension Program.

     STRATEGIC OBJECTIVE 3.2: Ensure the apprehension of fugitives from justice.

PROGRAMS (Fugitive Apprehension Program and Sex Offender Apprehension Program):

Background/Program Objectives: The USMS has seven Regional Fugitive Task Forces (RFTF)
and approximately 82 district-based warrant squads that handle the warrant workload. A fugitive is
considered “apprehended” if the fugitive is physically arrested or a Federal detainer is lodged
against the prisoner while in custody of another Federal, state, or local law enforcement agencies or
correctional institution; a fugitive is considered “cleared” if the fugitive is arrested, has a detainer
issued, or the warrant is dismissed. A detainer is considered “lodged” while in process, and is
considered “issued” when served to the prisoner and filed by the agency or institution. The RFTFs
and district warrant squads rely on interagency fugitive task forces involving hundreds of Federal,
state, and local law enforcement officers. Combining resources enables the USMS to focus on the
most violent fugitives. In addition to domestic activities, the USMS is the lead agency responsible
for extraditing (or deporting) U.S. fugitives that have fled to foreign countries back into this
country. The USMS also apprehends foreign fugitives within the U.S. who are wanted abroad.
As part of the fugitive apprehension mission, the USMS has been designated by the Attorney
General as the lead agency for locating and apprehending non-compliant sex offenders and others
who violate the provisions of the Adam Walsh Child Protection and Safety Act. A non-compliant
sex offender is any person who fails to comply with Federal registration requirements.




United States Marshals Service
                                                - 10 -
                                          U.S. Department of Justice 

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


                                  Table 4. Performance Measure: 

     Number and Percent of Primary Federal Felony Fugitives Apprehended or Cleared* 

                                                Primary Federal Felony Fugitives
                                                    Apprehended or Cleared
               Performance Measure:
                                                    Number              Percent
          FY 2002 Actual Performance:                25,054               53%
          FY 2003 Actual Performance:                27,278               54%
          FY 2004 Actual Performance:                29,140               55%
          FY 2005 Actual Performance:                30,434               55%
          FY 2006 Actual Performance:                30,192               54%
          FY 2007 Actual Performance:                33,437               55%
          FY 2008 Actual Performance:                34,393               55%
          FY 2009 Actual Performance:                32,860               52%
          FY 2010 Actual Performance:                32,864               50%
          FY 2011 Target Performance:                34,000               56%
          FY 2011 Actual Performance:                34,629               52%
* The title of this performance measure has been refined to match USMS Budget Submissions.

Discussion of FY 2011 Results: The USMS revised the previously reported figure for the FY 2010
performance measure from 36,126 and 56% to 32,864 and 50%. The change is a result of an update
to reflect final data/information. For FY 2011, the USMS exceeded its target of 34,000 primary
Federal felony fugitives apprehended or cleared by apprehending or clearing 34,629 primary
Federal felony fugitives in FY 2011. This resulted in 52% of total primary Federal felony fugitives
apprehended or cleared which is more than half of all warrants on hand or received during FY
2011. The target of 56% apprehended or cleared was not met due to the dynamic and increasing
level of the underlying number of fugitives. Among those arrested, 3,913 were for crimes of
homicide, 4,958 were gang members, and 12,793 were sex offenders. In addition, in FY 2011, the
USMS had 885 fugitives extradited and /or deported to the United States from other countries.
The seven operating Regional Fugitive Task Forces (RFTF), in addition to the 75 district task
forces, are directing their investigative efforts toward reducing the number of violent crimes. These
crimes include terrorist activities, organized crime, drugs, and gang violence. The Regional
Fugitive Task Forces and District Fugitive Task Forces combined led to the arrest of 85,691 state
and local fugitive felons in FY 2011. The USMS initiated 2,808 Federal investigations into the
failure of sex offenders to meet their registration requirements.




United States Marshals Service
                                                - 11 -
                                          U.S. Department of Justice 

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


Data Definition: A “primary” Federal felony fugitive means that the USMS has the lead
apprehension responsibility. The USMS has primary jurisdiction to investigate fugitive matters
involving:
       escaped Federal prisoners,
       probation, parole, and bond default violators,
       warrants generated by the DEA and referred to the USMS,
       any other Federal warrant referred by another Federal agency without arrest powers, and
       any warrant referred by state and local agencies.
A fugitive is considered apprehended or cleared if the fugitive is arrested, has a detainer issued, or
the warrant is dismissed. The percent cleared is calculated by dividing the number of cleared
fugitives by the sum of received fugitives (fugitives who had a warrant issued during the fiscal year)
and on-hand fugitives (fugitives who had an active warrant at the beginning of the fiscal year).
Data Collection and Storage: The USMS maintains a centralized Warrant Information Network
(WIN) within the Justice Detainee Information System (JDIS) to collect warrant information,
investigative leads, and other criminal information. Upon receipt of a warrant from a Federal judge,
Deputy U.S. Marshals query the FBI’s National Crime Information Center (NCIC) through WIN to
look for previous criminal information.
Data Validation and Verification: Warrant and fugitive data are verified by a random sampling of
NCIC records generated by the FBI. The USMS coordinates with district offices to verify that
warrants are validated against the signed court records. The USMS is able to enhance fugitive
investigative efforts by sharing data with other agencies, such as the Social Security Administration,
DEA, Department of Agriculture, Department of Defense, Department of State, and a variety of
state and local task forces around the country.
Data Limitations: WIN data is accessible to all USMS districts and is updated as new information
is collected and thus there may be a lag in reporting of data.




United States Marshals Service
                                               - 12 -
                                          U.S. Department of Justice 

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)



ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE
USMS Major Systems
Justice Unified Telecommunications Network (JUTNet): The backbone infrastructure that
supports all the systems that operate within the USMS.
Warrant Information Network (WIN): Tracks Federal fugitive warrants, task force warrants,
collateral lead information, and case management information.
Standardized Tracking, Accounting and Reporting System (STARS): The primary financial
management system of the USMS.
The USMS is planning to migrate STARS functions to the DOJ Unified Financial Management
System (UFMS) in FY 2013. UFMS has been designed and developed to allow some of the
components of the DOJ to integrate their operations into one system from which they will process
all financial and procurement activity.
JPATS Management Information System (JMIS): Draws information from multiple JPATS-
specific programs and databases in order to produce financial and managerial information.
Justice Detainee Information System 8 (JDIS 8): JDIS 8 combines all the information from JDIS
and WIN. JDIS 8 has been designed to automate and integrate the information captured during the
prisoner booking process and subsequent USMS custody details, with warrant and investigative
information utilized to track fugitives.

The Federal Managers’ Financial Integrity Act of 1982
The Federal Managers’ Financial Integrity Act of 1982 (Integrity Act or FMFIA) provides the
statutory basis for management’s responsibility for and assessment of internal accounting and
administrative controls. Such controls include program, operational, and administrative areas, as
well as accounting and financial management. The FMFIA requires Federal agencies to establish
controls that reasonably ensure obligations and costs are in compliance with applicable law; funds,
property, and other assets are safeguarded against waste, loss, unauthorized use, or
misappropriation; and revenues and expenditures are properly recorded and accounted for to
maintain accountability over the assets. The Integrity Act also requires agencies to annually assess
and report on the internal controls that protect the integrity of Federal programs (FMFIA § 2) and
whether financial management systems conform to related requirements (FMFIA § 4).
Guidance for implementing the Integrity Act is provided through OMB Circular A-123. In addition
to requiring agencies to provide an assurance statement on the effectiveness of programmatic
internal controls and conformance with financial systems requirements, the Circular requires
agencies to provide an assurance statement on the effectiveness of internal control over financial
reporting. The Department requires components to provide both of the assurance statements in
order to have the information necessary to prepare the agency assurance statements.
FMFIA Assurance Statement
Management of the USMS is responsible for establishing and maintaining effective internal control
and financial management systems that meet the objectives of FMFIA. The USMS assessed its
internal control over the effectiveness and efficiency of operations and compliance with applicable
laws and regulations in accordance with OMB Circular A-123, Management’s Responsibility for



United States Marshals Service
                                               - 13 -
                                          U.S. Department of Justice 

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


Internal Control, as required by Section 2 of FMFIA. The USMS also assessed whether its
financial management systems conform to government-wide requirements, as required by Section 4
of FMFIA. Based on the results of the assessment, the USMS can provide reasonable assurance
that its internal control over financial reporting was operating effectively as of June 30, 2011, with
the exception of the reportable condition summarized below.
Based on the results of the internal control testing, the USMS Senior Assessment Team believes
progress has been made to remediate the previously reported material weakness to the level of a
reportable condition. While progress has been demonstrated, it is strongly believed that this area
requires continued focus to improve funds management controls and demonstrate sustained progress
to prevent this deficiency from rising to the level of material weakness again. The USMS Senior
Assessment Team will monitor and validate continued corrective action.
The reportable condition exists in the area of controls over the processing and recording of
obligations, undelivered orders, and accounts payable. Specifically, deficiencies existed in the
following areas:
       Obligations are recorded accurately and timely in the financial system and amounts for
        invalid or residual balances are de-obligated on a timely basis;
       Accruals are accurately and timely recorded with a justified methodology; and
       Obligations and transactions are appropriately supported and authorized by an approving
        official to prevent unauthorized commitments.
Other than the exception noted, internal control over financial reporting was operating effectively as
of June 30, 2011, and no material weakness or other reportable conditions were found in the design
or operations of the controls.
Internal Controls Program
USMS management continues to support and commit resources to Departmental component internal
control programs. The objective of the USMS’s internal control program is to provide reasonable
assurance that operations are effective, efficient, and comply with applicable laws and regulations;
financial reporting is reliable; and assets are safeguarded against waste, loss, and unauthorized use.
USMS management identifies issues of concern through a network of oversight councils and
internal review teams. These include the USMS Office of Inspections, the Department’s OMB
Circular A-123 Senior Assessment Team, and the Justice Management Division’s Internal Review
and Evaluation Office and Quality Control and Compliance Group. USMS management also
considers reports issued by the Office of the Inspector General in its evaluation of internal control.
The USMS commitment to management excellence, accountability, and compliance with applicable
laws and regulations is evidenced by efforts to establish reasonable controls and make sound
determinations on corrective actions.

Legal Compliance
Federal Financial Management Improvement Act of 1996
The Federal Financial Management Improvement Act (FFMIA) was designed to improve Federal
financial and program managers’ accountability, provide better information for decision-making,
and improve the efficiency and effectiveness of Federal programs. FFMIA requires agencies to
have financial management systems that substantially comply with Federal financial management


United States Marshals Service
                                               - 14 -
                                          U.S. Department of Justice 

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


systems requirements, applicable Federal accounting standards, and the U.S. Standard General
Ledger (USSGL) at the transaction level. Furthermore, the Act requires independent auditors to
report on agency compliance with the three requirements in the financial statement audit report. The
Federal Information Security Management Act (FISMA) states that to be substantially compliant
with FFMIA, there are to be no significant deficiencies in information security policies, procedures,
or practices.

FFMIA Compliance Determination
USMS management assessed its financial management systems for compliance with FFMIA and
determined that the systems were not fully compliant in FY 2011.
     The USMS’s financial management system, STARS, does not meet Federal financial
       management systems requirements established in OMB Circular A-127, Financial
       Management Systems, because STARS lacks integrated subsidiary records to support
       certain material account balances. USMS must rely on manually prepared subsidiary
       ledgers and manual processes to generate financial reports.
     The USMS’s posting of undelivered orders and accounts payable transactions has some
       departure from Federal accounting standards (promulgated by the Federal Accounting
       Standards Advisory Board) and the form and content provisions of OMB Circular A-136,
       Financial Reporting Requirements.

POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS
USMS financial statements document existing, currently-known events, conditions and
trends. Through the agency financial transactions, one can learn how the USMS has used
its appropriated resources to meet its strategic goals. What is not evident are the
anticipated future demands that will be placed upon the USMS in FY 2012 and beyond.
Current trends, including an increased focus on illegal immigration and the impact of the
current economic recession, may alter the resources needed by the USMS in order to
fulfill its law enforcement mission in FY 2012 and beyond. Illegal immigration has
become a key issue across the country as many states have recently passed laws that will
increase the demand on law enforcement to apprehend and adjudicate persons living in
the country illegally. As a key agency involved in Southwest Border law enforcement
activities, the USMS will play a pivotal role in the evolving legal environment. Further,
the downturn in the economy may place additional demands on USMS operations as
fluctuations in criminal activity tend to occur in times of economic distress.

IMPROPER PAYMENTS ELIMINATION AND RECOVERY ACT
IMPLEMENTATION
In accordance with OMB Circular A-123, Appendix C, Requirements for Effective
Measurement and Remediation of Improper Payments, and the Departmental guidance
for implementing the Improper Payments Elimination and Recovery Act (IPERA), the
Department implemented a top-down approach to assess the risk of significant improper
payments across all five of the Department’s mission-aligned programs, and to identify
and recapture improper payments through a payment recapture audit program. The
approach promotes consistency across the Department and enhances internal control


United States Marshals Service
                                               - 15 -
                                          U.S. Department of Justice 

                                        United States Marshals Service

                                 Management’s Discussion and Analysis (Unaudited)


related to preventing, detecting, and recovering improper payments. Because of the
OMB requirement to assess risk and report payment recapture audit activities by agency
programs, the results of the Department’s risk assessment and recapture activities are
reported at the Department-level only.
In accordance with the Departmental approach for implementing IPERA, the USMS
assessed its activities for susceptibility to significant improper payments. The USMS
also conducted its payment recapture audit program in accordance with the Departmental
approach. The USMS provided the results of both the risk assessment and payment
recapture audit activities to the Department for the Department-level reporting in the FY
2011 Performance and Accountability Report.

LIMITATIONS OF THE FINANCIAL STATEMENTS
    	 USMS financial statements have been prepared to report the financial position and results
       of agency operations, pursuant to the requirements of 31 U.S.C. 3515(b).
    	 While the statements have been prepared from the books and records of the USMS in
       accordance with U.S. generally accepted accounting principles for Federal entities and the
       formats prescribed by OMB, the statements are in addition to the financial reports used to
       monitor and control budgetary resources which are prepared from the same books and
       records.
    	 The statements should be read with the realization that they are for a component of the U.S.
       government, a sovereign entity.




United States Marshals Service
                                              - 16 -
                                          U.S. Department of Justice 

                                        United States Marshals Service

                        Management’s Discussion and Analysis (Unaudited) – Attachment 1





United States Marshals Service
                                             - 17 -
                                          U.S. Department of Justice 

                                        United States Marshals Service

                        Management’s Discussion and Analysis (Unaudited) – Attachment 2





                  THE 94 USMS DISTRICT OFFICES





United States Marshals Service
                                             - 18 -
U.S. DEPARTMENT OF JUSTICE


UNITED STATES MARSHALS SERVICE



     INDEPENDENT AUDITORS’ REPORTS




                 - 19 -
This page left intentionally blank.
	




              - 20 -
                                 INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS 
 
 
Acting Inspector General 
United States Department of Justice 
 
 
Director 
United States Marshals Service 
United States Department of Justice 
 
 
We have audited the accompanying Consolidated Balance Sheets of the United States Marshals Service (USMS), a 
component of the United States Department of Justice (DOJ), as of September 30, 2011 and 2010, and the related 
Consolidated Statements of Net Cost, Consolidated Statements of Changes in Net Position, and Combined 
Statements of Budgetary Resources for the years then ended.  These financial statements are the responsibility of 
USMS’s management.  Our responsibility is to express an opinion on these financial statements based on our 
audits. 
 
We conducted our audits in accordance with auditing standards generally accepted in the United States of 
America; the standards applicable to financial audits contained in Government Auditing Standards, issued by the 
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07‐04, Audit 
Requirements for Federal Financial Statements, as amended.  Those standards and OMB Bulletin No. 07‐04 require 
that we plan and perform the audits to obtain reasonable assurance about whether the financial statements are 
free of material misstatement.  An audit includes consideration of internal control over financial reporting as a 
basis for designing audit procedures that are appropriate in the circumstances, but not for the purpose of 
expressing an opinion on the effectiveness of USMS’s internal control over financial reporting.  Accordingly, we 
express no such opinion.  An audit includes examining, on a test basis, evidence supporting the amounts and 
disclosures in the financial statements.  An audit also includes assessing the accounting principles used, and 
significant estimates made by management, as well as evaluating the overall financial statement presentation.  We 
believe that our audits provide a reasonable basis for our opinion. 
 
In our opinion, the financial statements referred to above present fairly, in all material respects, the consolidated 
financial position of the United States Department of Justice, United States Marshals Service  as of September 30, 
2011 and 2010, and its consolidated net costs, consolidated changes in net position, and combined budgetary 
resources for the years then ended, in conformity with accounting principles generally accepted in the United 
States of America. 
 
Accounting principles generally accepted in the United States of America and OMB Circular No. A‐136, Financial 
Reporting Requirements, require that the Management’s Discussion and Analysis and the Combining Statements of 
Budgetary Resources be presented to supplement the basic financial statements.  Such information, although not a 
part of the basic financial statements, is required by the Federal Accounting Standards Advisory Board and OMB, 
who consider it to be an essential part of financial reporting for placing the basic financial statements in an 
appropriate operational, economic, or historical context.  We have applied certain limited procedures to the 




                                                      - 21 -
required supplementary information in accordance with auditing standards generally accepted in the United States 
of America, which consisted of inquiries of management about the methods of preparing the information and 
comparing the information for consistency with management’s responses to our inquiries, the basic financial 
statements, and other knowledge we obtained during our audit of the basic financial statements.  We do not 
express an opinion or provide any assurance on the information because the limited procedures do not provide us 
with sufficient evidence to express an opinion or provide any assurance. 

In accordance with Government Auditing Standards, we have also issued our reports dated November 8, 2011, on 
our consideration of USMS’s internal control over financial reporting and on our tests of its compliance with 
certain provisions of applicable laws and regulations.  The purpose of those reports is to describe the scope of our 
testing of internal control over financial reporting and compliance and the results of that testing, and not to 
provide an opinion on the internal control over financial reporting or on compliance.  Those reports are an integral 
part of an audit performed in accordance with Government Auditing Standards and should be read in conjunction 
with this report in assessing the results of our audits. 
 
 
COTTON & COMPANY LLP 
 




                                                    
Catherine L. Nocera, CPA, CISA 
Partner 
 
November 8, 2011 
Alexandria, Virginia 




                                                       - 22 -
                      INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING 
 
 
Acting Inspector General 
United States Department of Justice 
 
 
Director 
United States Marshals Service 
United States Department of Justice 
 
 
We have audited the Consolidated Balance Sheets of the United States Marshals Service (USMS), a component of 
the United States Department of Justice (DOJ), as of September 30, 2011 and 2010, and the related Consolidated 
Statements of Net Cost, Consolidated Statements of Changes in Net Position, and Combined Statements of 
Budgetary Resources for the years then ended, and have issued our report thereon dated November 8, 2011.  We 
conducted our audits in accordance with auditing standards generally accepted in the United States of America; 
standards applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller 
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07‐04, Audit Requirements 
for Federal Financial Statements, as amended. 
 
USMS’s management is responsible for establishing and maintaining effective internal control over financial 
reporting.  In planning and performing our fiscal year 2011 audit, we considered USMS’s internal control over 
financial reporting as a basis for designing our auditing procedures for the purpose of expressing our opinion on 
the financial statements, but not for the purpose of expressing an opinion on the effectiveness of USMS’s internal 
control over financial reporting.  Accordingly, we do not express an opinion on the effectiveness of USMS’s internal 
control over financial reporting or on management’s assertion on internal control included in Management’s 
Discussion and Analysis.  We limited our internal control testing to only those controls necessary to achieve the 
objectives described in Government Auditing Standards and OMB Bulletin No. 07‐04.  We did not test all internal 
controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 
1982, such as controls relevant to ensuring efficient operations. 
 
Our consideration of internal control over financial reporting was for the limited purpose described in the 
preceding paragraph and was not designed to identify all deficiencies in internal control over financial reporting 
that might be significant deficiencies or material weaknesses.  Therefore, there can be no assurance that all 
deficiencies, significant deficiencies, or material weaknesses have been identified.  However, as discussed below, in 
our fiscal year 2011 audit, we identified certain deficiencies in internal control over financial reporting that, when 
combined, we consider to be a material weakness. 
 
A deficiency in internal control exists when the design or operation of a control does not allow management or 
employees, in the normal course of performing their assigned functions, to prevent, or detect and correct 
misstatements on a timely basis.  A material weakness is a deficiency, or combination of deficiencies, in internal 
control, such that there is a reasonable possibility that a material misstatement of the entity’s financial statements 



                                                            

                                                      - 23 -
will not be prevented, or detected and corrected on a timely basis.  We consider the following deficiency in USMS’s 
internal control over financial reporting to be a material weakness. 
 
USMS’s response to the finding identified in our audit is included after each recommendation.  We did not audit 
USMS’s response and, accordingly, we express no opinion on it. 
 
FUNDS MANAGEMENT CONTROLS NEED IMPROVEMENT (MATERIAL WEAKNESS) (REPEAT) 
 
The USMS does not have adequate financial and compliance controls to ensure that obligation transactions are 
executed and recorded in accordance with laws and regulations, and that related undelivered orders and accounts 
payable balances are accurate and complete.  During fiscal year 2010, the USMS created the Audit Coordination 
and Remediation (ACR) team, which serves as the audit liaison, recommends and implements funds management 
process improvements, and advises the Financial Services Division on remediation strategies.  The ACR team 
developed a Corrective Action Plan (CAP) to address the previously reported material weakness related to 
undelivered orders and accounts payable.  The ACR team directed testing of undelivered orders and accounts 
payable and provided training, assistance, and guidance to USMS personnel throughout the review process.  The 
USMS made significant progress in developing and documenting standard operating procedures for processing 
various types of transactions.  The procedures, however, were not finalized and/or consistently implemented in all 
of the USMS’s district and headquarters offices during fiscal year 2011.  In addition, although district and 
headquarters office personnel completed training, the procedures have not been in place long enough for district 
or program office personnel to apply them in an operational environment, and in a routine manner.  Accordingly, 
we identified a significant number of errors during fiscal year 2011 testing. 
 
A.	 UNDELIVERED ORDERS 
We selected and reviewed undelivered order transactions during interim and year‐end testing.  We noted 
significant accounting errors and instances of noncompliance, which resulted in the following known and likely 
misstatements. 
      
                                                   UNDELIVERED ORDERS
                                              FISCAL YEAR 2011 TEST RESULTS 
                                                    Number of 
                                                      Errors/ 
                                                   Transactions 
   Sample Population                                  Tested             Known Errors        Likely Misstatement1 
   Headquarters and District Offices	                                   $6.1 million net        $16.6 million net 
                                                      43/170 
   (March 31, 2011)	                                                    overstatement            overstatement 
                                                                        $7.4 million net        $10.8 million net 
   Headquarters (June 30, 2011)	                      32/148 
                                                                        overstatement            overstatement 
   Headquarters and District Offices	                                   $2.7 million net        $18.6 million net 
                                                       13/76 
   (September 30, 2011)	                                                overstatement            overstatement  
 1
   Each transaction tested has a unique weight in relation to the total population; therefore, the likely misstatement will not be in linear
 
 proportion to the known errors.
 
 
The accounting errors and instances of non‐compliance are discussed below. 
 
Headquarters and District Offices (March 31, 2011) 
     Eleven undelivered order transactions were overstated by $688 thousand because the USMS did not 
        record an accrual for goods and services received as of March 31, 2011. 
         
    	 One undelivered order transaction was overstated by $1.457 million because the obligation for the 
        reimbursable work authorization was recorded in the Standardized Tracking Accounting and Reporting 
        System (STARS) before the General Services Administration (GSA) accepted the project. 


                                                                           

                                                                     - 24 -
          
    	   Three undelivered order transactions were overstated by a net $3.174 million because of errors made 
         when calculating the provider listing accruals. 
          
    	   One undelivered order transaction was understated by $1.596 million because the USMS incurred costs in 
         excess of amounts obligated and did not increase obligations incurred when it recorded the accounts 
         payable accrual. 
          
    	   Twelve undelivered order transactions were overstated by a net $278 thousand because the USMS: 
          made errors in calculating accounts payable accruals;  
          did not adjust previously recorded accounts payable accruals to reflect the actual invoice amounts; 
          did not either accrue or deobligate remaining undelivered order amounts for obligations in which the 
             period of performance had expired or the contract was completed;  
          recorded amounts in STARS in excess of amounts supported by the underlying source documents; or 
          did not reverse a September 30, 2010 Purchase Card Information System (PCIS) accrual prior to 
             recording the actual payment. 
          
    	   Seven undelivered order transactions were overstated by a net $1.617 million because the USMS did not 
         record an accrual for goods and services received as of March 31, 2011.  In addition, four of these 
         transactions did not have sufficient funds obligated to cover the goods and services provided through 
         March 31, 2011.  For one transaction, the USMS did not post an accrual because of limitations with the 
         current purchase‐card accrual process, which does not capture instances in which the USMS has received 
         goods or services but payment has not been initiated by the vendor providing the goods or services. 
          
    	   Eight undelivered order transactions were overstated by a net $484 thousand because the USMS: 
          did not reduce the remaining undelivered order balances when the medical services were received 
             and the re‐priced amount was accrued; 
          did not cancel a PCIS obligation when the payment was made against the fleet card obligation rather 
             than the PCIS card obligation; 
          made posting errors when recording three transactions; 
          recorded a high‐level IPAC payment by reducing accounts payable even though an accounts payable 
             had not been recorded to accrue the goods or services; 
          processed medical services payments in error against the wrong obligation; or 
          did not either fully accrue or deobligate remaining balances on an obligation for which the period of 
             performance had expired. 
 
Headquarters (June 30, 2011) 
    Ten undelivered order transactions were overstated by $1.098 million because the USMS did not record 
       an accrual for goods and services received as of June 30, 2011. 
        
   	 Five undelivered order transactions were overstated by a net $1.590 million because the USMS: 
        did not obligate the full value of the contract;
  
        obligated more than the amounts supported by contract modifications; or
  
        recorded the entire agreement to one document number, yet also recorded portions of the 
           agreement to other document numbers, resulting in duplicate recorded obligations. 
        
   	 Four undelivered order transactions were overstated by $2.669 million because the period of 
       performance had expired, the contract was cancelled, or the project was complete as of June 30, 2011, 
       and remaining undelivered order amounts had not been deobligated.   
        
   	 Six undelivered order transactions were overstated by a net $1.840 million because of errors made when 
       calculating the provider listing accruals. 


                                                         

                                                    - 25 -
           
         Seven undelivered order transactions were overstated by a net $171 thousand because the USMS: 
           made errors when calculating accounts payable accruals;  
           could not support or reconstruct how the accrual was calculated; 
           made an error when processing a correcting entry; 
           made a payment against the obligation in error; or 
           paid a travel voucher twice and had not yet recorded the refund in STARS. 
           
Headquarters and District Offices (September 30, 2011) 
     	 Four undelivered order transactions for court security officer services were overstated by $1.664 million 
          because the USMS: 
           did not deobligate remaining balances for obligations for which the period of performance had 
              expired; 
           did not accrue for all services received because either sufficient funding was not available or costs 
              were disputed in error; or 
           obligated amounts in excess of the approved task order because funding was moved from one 
              obligation to another, and recorded payments against the wrong obligation. 
               
     	 One undelivered order transaction for prisoner medical costs was understated by $47 thousand because 
          the USMS accrued more than amounts supported by source documents. 
           
      Eight undelivered order transactions were overstated by a net $1.048 million because the USMS: 
           obligated the amount allocated on the workplan for the project, rather than amounts supported by 
              the purchase order; 
           did not accrue for goods and services provided through September 30, 2011; 
           did not adjust its estimated accruals to equal the invoiced amounts when the invoices were received 
              and paid; or 
           made an error when updating the obligation amount in STARS when estimated relocation costs were 
              recalculated. 
 
B.	 DELIVERED ORDERS – OBLIGATIONS UNPAID (ACCOUNTS PAYABLE) 
We selected and reviewed accounts payable transactions during interim and year‐end testing.  We noted 
significant accounting errors and instances of noncompliance, which resulted in the following known and likely 
misstatements. 
 
                                       DELIVERED ORDERS – OBLIGATIONS UNPAID
                                            FISCAL YEAR 2011 TEST RESULTS 
                                                 Number of 
                                            Errors/Transactions 
Sample Population                                  Tested              Known Errors         Likely Misstatement2 
Headquarters and District Offices	                                    $5.2 million net         $39.9 million net 
                                                    23/90 
(March 31, 2011)	                                                     understatement           understatement 
                                                                      $1.6 million net          $3.4 million net 
Headquarters (June 30, 2011)	                       14/58 
                                                                      understatement           understatement 
Headquarters and District Offices                                    $142 thousand net        $19 thousand net 
                                                    19/79 
(September 30, 2011)	                                                  overstatement           understatement 
2
  Each transaction tested has a unique weight in relation to the total population; therefore, the likely misstatement will not be in linear 
proportion to the known errors.  In addition, a known net overstatement may project to a likely net understatement. 




                                                                           

                                                                     - 26 -
 
The accounting errors and instances of non‐compliance are discussed below. 
 
Headquarters and District Offices (March 31, 2011) 
    	 Three accounts payable transactions were understated by a net $3.196 million because the USMS made 
        errors when calculating the provider listing accrual. 
         
    	 Eight accounts payable transactions were understated by a net $856 thousand because the USMS: 
         did not record an accrual for all goods and services received as of March 31, 2011, and/or did not 
            adjust previously recorded estimated accounts payable to reflect actual invoice amounts; or 
         made errors when calculating the accruals. 
         
    	 Eight accounts payable transactions for prisoner housing and transportation were understated by a net 
        $207 thousand because the USMS: 
         did not have sufficient funds obligated to cover the goods and services provided through 
            March 31, 2011, and did not adequately support four transactions because it did not maintain the 
            USM‐268a, Jail Utilization Report, showing the estimated prisoner housing costs for a particular 
            month;  
         could not support or reconstruct how it calculated the accounts payable;  
         did not accrue for all services received because sufficient funding was not obligated; or 
         did not adjust its estimated accruals to equal the invoiced amounts when the invoices were received 
            and paid. 
             
    	 Four accounts payable transactions for court security officer services were understated by a net $871 
        thousand because the USMS: 
         incorrectly reduced the accounts payable balance rather than the undelivered order balance when 
            correcting an error in the undelivered order balance; or 
         did not accrue for all services received because sufficient funding was either not allocated for 
            obligation, or was not yet obligated in STARS. 
         
Headquarters (June 30, 2011) 
     Two accounts payable accruals were understated by $1.122 million because the USMS made errors when 
        calculating the provider listing accruals.   
         
     Twelve accounts payable transactions were understated by a net $505 thousand because the USMS: 
         did not accrue for all goods or services received as of June 30, 2011; 
         did not adjust previously recorded accounts payable to reflect actual invoice amounts; 
         made errors when calculating the accrual estimates; or 
         recorded an accrual for postage meter machines that had not been received as of June 30, 2011. 
 
Headquarters and District Offices (September 30, 2011) 
     Seven accounts payable transactions for court security officer services were understated by a net $297 
        thousand because the USMS: 
         either did not accrue or only partially accrued for services received in September because sufficient 
            funding was not allocated for obligation; 
         accrued more than what was supported by sources documents; 
         accrued the remaining undelivered order balance rather than the amount estimated for services 
            received; or 
         accrued amounts under an obligation that had been fully paid as of September 30, 2011. 
 




                                                         

                                                    - 27 -
    	   Ten accounts payable transactions for prisoner housing services were overstated by a net $342 thousand 
         because the USMS: 
          did not adequately support the amounts accrued, which differed from amounts supported by the 
              USMS 268a reports; 
          made an error when recording the monthly accrual; or 
          did not adjust its estimated accrual to equal the actual invoice amount when the invoice was 
              received. 
          
    	   Two accounts payable transactions for prisoner medical costs were overstated by $97 thousand because 
         the USMS did not adequately support its accrued amounts, which differed from estimated amounts based 
         on invoices received from medical providers. 
 
 
Statement of Federal Financial Accounting Standards No. 5, Accounting for Liabilities of the Federal Government, 
paragraphs 22 and 23, state that a liability and the corresponding expense should be recognized during the period 
when an exchange transaction takes place. 
 
Title 31 U.S.C. §1501(a) states: 
           
          An amount shall be recorded as an obligation of the United States Government only when 
          supported by documentary evidence of:  (1) a binding agreement . . .; (2) a loan agreement . . .; 
          (3) an order required by law to be placed with an agency; (4) an order issued under a law 
          authorizing purchases without advertising . . .; (5) a grant or subsidy payable . . .; (6) a liability 
          that may result from pending litigation; (7) employment or services of persons or expenses of 
          travel under law; (8) services provided by public utilities; or (9) other legal liability of the 
          Government against an available appropriation or fund. 
 
OMB Circular A‐11, Preparation, Submission, and Execution of the Budget, states that an obligation is a legally 
binding agreement that will result in outlays that will occur either immediately or in the future.  An obligation is 
incurred when an order is placed or a contract is signed that requires the Government to make payments to the 
public or to another Government agency. 
 
The USSGL defines an undelivered order as “the amount of goods and/or services ordered which have not been 
actually or constructively received.” 
 
USMS Directive 5.1, Accounting for Commitments and Obligations, states, “no amount shall be recorded as an 
obligation unless supported by documentary evidence of transactions authorized by law.”  It also states that 
“program managers are responsible for the accurate and timely accounting of their workplans’ commitments and 
obligations,” and requires program managers to “ensure that a monthly review of their workplan obligation(s) is 
performed.” 
 
RECOMMENDATIONS 
 
We recommend the USMS: 
 
1.	 Continue coordinated efforts among the ACR team, Financial Services Division, and USMS program offices to 
     finalize and consistently implement policies and procedures for recording obligations and deobligations in a 
     timely manner, and to ensure that accruals for goods and services provided but not paid for are properly 
     calculated, recorded timely, and adequately supported.  (Updated) 
      




                                                           

                                                      - 28 -
    Management Response: 
     
    USMS concurs.  In FY 2011, Program Office document reviews were conducted on a scheduled basis and key 
    controls were tested that ensured USMS policies and procedures were followed.  Each document was cross‐
    checked, and supporting documentation was reviewed to trace the individual transaction through the financial 
    process steps. 
     
    In FY 2012, the Open obligation review procedures will continue to be built on to ensure consistency and 
    accuracy of reporting.  The ACR team will continue to serve as an audit liaison, and will recommend and 
    implement improvements in the funds management process. 
     
2.	 Enhance supervisory review and approval controls, including review of source documentation, calculations, 
    and posting logic for accounts payable, obligations, and deobligation transactions.  (Repeat) 
     
    Management Response: 
     
    USMS concurs.  In FY 2011, the Audit Coordination and Remediation (ACR) Team reviewed each open 
    obligation submission that required supervisory review and approval.  Communications were provided to the 
    District Office Chief Deputy U.S. Marshal, the Administrative Officer (AO), and USMS key stakeholders on the 
    detailed findings of the District Office monthly testing.  For Program Offices, feedback was provided to the 
    individual Program Office budget staffs. 
     
    In FY 2012, USMS Management will continue to ensure that enhanced supervisory reviews and approval 
    controls are performed quarterly, and discrepancies resolved timely. 
     
3.	 Review and update policies and procedures for the use of purchase cards to pay recurring charges, including 
    procedures to ensure that accruals are recorded for goods and services received, and that there is an 
    adequate audit trail to support undelivered order and accounts payable balances.  (Updated) 
     
    Management Response: 
     
    USMS concurs.  Purchase card procedures will continue to be reviewed for coordination and standardization 
    of efforts across Headquarters Program Offices and the USMS will continue its reviews to utilize PCIS per 
    existing policies. 
     
    USMS Management current policies and practices were successfully implemented throughout the USMS 
    district offices.  In addition, extensive training workshops were conducted on various topics including 
    recording of goods and services received, as well as providing enhanced detective controls to support 
    undelivered orders and accounts payable balances. 
     




                                                         

                                                    - 29 -
4.	 Continue efforts to review and modify financial management and accounting processes at district and 
     headquarters program offices to:  identify process, knowledge, and training gaps affecting the execution of 
     and adherence to USMS directives, policies and procedures; implement corrective action to address the 
     identified gaps; and develop and implement procedures for maintaining source documentation that can be 
     easily retrieved for review and audit purposes.  (Repeat) 
      
     Management Response: 
      
     USMS concurs.  In FY 2011, USMS Management made extensive progress in the design and implementation of 
     a control environment, greatly assisting in the continuous reviews and monitoring of accounting processes at 
     district and headquarters program offices. The successful implementation of preventive and detective controls 
     strengthened the new processes and procedures for funds management, illustrated in the results for the 
     accounts payable testing completed in the fourth quarter.  Building on this success in FY 2012 will become a 
     cornerstone for continuous improvements for future audits. 
      
      
      
                                             *         *        *      * 
OMB Bulletin No. 07‐04 requires us to compare material weaknesses disclosed during our audit with the material 
weaknesses reported by the USMS in its Federal Managers’ Financial Integrity Act (FMFIA) assessment for the audit 
period.  We noted that the USMS did not report a material weakness related to funds management controls in its 
fiscal year 2011 FMFIA assessment, which is submitted to the DOJ for aggregation into the DOJ’s overall FMFIA 
assessment. 
 
We provide the current status of open recommendations from prior years in the following Exhibit. 
 
This report is intended solely for the information and use of USMS’s management, DOJ Office of the Inspector 
General, OMB, U.S. Government Accountability Office, and the U.S. Congress; it is not intended to be and should 
not be used by anyone other than these specified parties. 
 
 
COTTON & COMPANY LLP 
 
 




                                                   
Catherine L. Nocera, CPA, CISA 
Partner 
 
November 8, 2011 
Alexandria, Virginia 




                                                          

                                                      - 30 -
                                                                                                           EXHIBIT 
                                                      
                                                      
                         STATUS OF PRIOR YEARS’ FINDINGS AND RECOMMENDATIONS 
 
As required by Government Auditing Standards issued by the Comptroller General of the United States, and by 
OMB Bulletin No. 07‐04, Audit Requirements for Federal Financial Statements, as amended, we have reviewed the 
status of prior years’ findings and recommendations.  The following table provides our assessment of the progress 
the USMS has made in correcting the previously identified significant deficiencies.  We also provide the Office of 
the Inspector General report number where the deficiency was reported, our recommendation for improvement, 
and the status of the recommendation as of the end of fiscal year 2011. 
  
                    Significant 
   Report                                              Recommendation                                   Status 
                    Deficiency 
Annual         Funds                Recommendation No. 4:  Coordinate efforts among                 Completed 
Financial      Management           the Office of Procurement, the Office of Budget, and 
Statement      Controls Need        the program offices to identify all unauthorized 
Fiscal Year    Improvement          commitments and ensure that ratifications are 
2008                                completed in a timely manner.  In addition, we 
Report No.                          recommend that the USMS provide Federal 
09‐13                               Acquisition Regulation training to appropriate 
                                    personnel to minimize instances of unauthorized 
                                    commitments in the future. 
                                     

Annual         Funds                Recommendation No. 1:  Enhance the ACR team’s                  In Process 
Financial      Management           efforts to ensure that accruals for goods and services      (Updated by Fiscal 
Statement      Controls Need        provided but not paid for are properly calculated,             Year 2011 
Fiscal Year    Improvement          recorded timely, and adequately supported, and that         Recommendation 
2010                                undelivered orders are valid.  Efforts should include,           No. 1) 
Report No.                          (a) Development and documentation of accrual 
11‐10                               policies and procedures, including methodologies for 
                                    specific types of accrual transactions; (b) Development 
                                    and documentation of policies and procedures for 
                                    conducting periodic reviews of undelivered orders and 
                                    accounts payable balances and process controls; 
                                    (c) Review, assessment, and recommendations for 
                                    improving the control environment and control 
                                    activities; (d) Continued training of headquarters and 
                                    district office personnel; (e) Continued emphasis on 
                                    periodic testing of undelivered orders and accounts 
                                    payable transactions to identify and correct 
                                    misstatements; and (f) Documentation of control and 
                                    substantive test results, including completed 
                                    checklists; evidence of supervisory review and 
                                    approval for corrective actions; evidence that 
                                    corrective action was taken; and performance metrics 




                                                          

                                                     - 31 -
                   Significant 
    Report                                          Recommendation                                Status 
                   Deficiency 
Annual         Funds              (such as transaction population, sample size, error                  
Financial      Management         rate, and corrective actions), so that progress can be 
Statement      Controls Need      measured and resources can be shifted and prioritized 
Fiscal Year    Improvement        accordingly. 
2010 
Report No.                        Recommendation No. 2:  Enhance supervisory review              In Process 
11‐10                             and approval controls, including review of source          (Fiscal Year 2011 
                                  documentation, calculations, and posting logic for         Recommendation 
                                  accounts payable, obligations, and deobligation                  No. 2) 
                                  transactions. 

                                  Recommendation No. 3:  Enhance procedures to                   Completed 
                                  ensure that obligations are recorded timely after the 
                                  period of continuing resolution ends, and develop 
                                  procedures to ensure that appropriate “availability of 
                                  funds” clauses are included in all agreements that are 
                                  not fully obligated. 

                                  Recommendation No. 4:  Develop procedures to                  In Process 
                                  ensure that purchase card accruals are recorded for all    (Updated by Fiscal 
                                  goods and services received, regardless of whether the        Year 2011 
                                  vendor has processed the payment for the goods or          Recommendation 
                                  services.                                                       No. 3) 

                                  Recommendation No. 5:  Review financial                        In Process 
                                  management and accounting processes in place at            (Fiscal Year 2011 
                                  district offices to identify process, knowledge and        Recommendation 
                                  training gaps affecting the execution of and adherence           No. 4) 
                                  to the USMS directives and policies; implement 
                                  corrective action to address the identified gaps; and 
                                  develop and implement procedures for maintaining 
                                  source documentation that can be easily retrieved for 
                                  review and audit purposes. 

                                  Recommendation No. 6:  Fully implement procedures              Completed 
                                  developed during fiscal year 2010 to ensure district 
                                  office personnel utilize a consistent and reasonable 
                                  methodology for recording prisoner medical 
                                  obligations and accruals. 
 
                                                                                                                
 




                                                        

                                                  - 32 -
                           INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND OTHER MATTERS 
 
 
Acting Inspector General 
United States Department of Justice 
 
 
Director 
United States Marshals Service 
United States Department of Justice 
 
 
We have audited the Consolidated Balance Sheets of the United States Marshals Service (USMS), a component of 
the United States Department of Justice (DOJ), as of September 30, 2011 and 2010, and the related Consolidated 
Statements of Net Cost, Consolidated Statements of Changes in Net Position, and Combined Statements of 
Budgetary Resources for the years then ended, and have issued our report thereon dated November 8, 2011.  We 
conducted our audits in accordance with auditing standards generally accepted in the United States of America; 
standards applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller 
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07‐04, Audit Requirements 
for Federal Financial Statements, as amended. 
 
USMS’s management is responsible for complying with laws, regulations, and contract agreements applicable to 
the USMS.  As part of obtaining reasonable assurance about whether USMS’s fiscal year 2011 financial statements 
are free of material misstatement, we performed tests of its compliance with certain provisions of laws, 
regulations, and contract agreements, noncompliance with which could have a direct and material effect on the 
determination of financial statement amounts, and certain provisions of other laws and regulations specified in 
OMB Bulletin No. 07‐04, including the provisions referred to in Section 803(a) of the Federal Financial 
Management Improvement Act  of 1996 (FFMIA).  However, providing an opinion on compliance with those 
provisions was not an objective of our audit, and accordingly, we do not express such an opinion.  The results of 
our tests disclosed instances of noncompliance or other matters that are required to be reported under 
Government Auditing Standards and OMB Bulletin No. 07‐04, as described in the following paragraphs. 
 
FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT (FFMIA)  (REPEAT) 
 
Under FFMIA, we are required to report whether USMS’s financial management systems substantially comply with 
federal financial management system requirements, applicable federal accounting standards, and application of 
the United States Standard General Ledger at the transaction level.  To meet this requirement, we performed tests 
of compliance with FFMIA Section 803(a) requirements. 
 
The results of our tests of FFMIA disclosed instances in which USMS’s financial management systems did not 
substantially comply with the first and second requirements discussed in the preceding paragraph. 
 
     	 Federal Financial Management System Requirements:  USMS’s financial management system, 
          Standardized Tracking, Accounting, and Reporting System (STARS), does not meet federal financial 




                                                    - 33 -
         management systems requirements established in OMB Circular No. A‐127, Financial Management 
         Systems, because STARS lacks integrated subsidiary records to support certain material account balances.  
         Accordingly, the USMS must rely on manually‐prepared subsidiary ledgers and ad‐hoc business processes 
         to generate financial reports. 
 
    	   Federal Accounting Standards:  We identified significant departures from federal accounting standards 
         promulgated by the Federal Accounting Standards Advisory Board in the areas of undelivered orders and 
         accounts payable, as discussed in our Independent Auditors’ Report on Internal Control over Financial 
         Reporting. 
 
USMS’s Chief Financial Officer is responsible for the financial management systems and the Chief Information 
Officer is responsible for information technology.  We make no recommendation corresponding with the first 
criterion (Federal Financial Management System Requirements) because the USMS has stated that it will be 
migrating to a DOJ Unified Financial Management System, and costs to correct the FFMIA deficiencies in the 
current accounting system are not justified.  Please refer to our Independent Auditors’ Report on Internal Control 
over Financial Reporting for recommendations related to the second criterion (Federal Accounting Standards). 
 
Management Response: 
 
USMS Management concurs.  STARS is an out‐dated financial system with significant challenges with respect to 
FFMIA requirements.  USMS is moving forward with the Department’s Unified Financial Management System 
(UFMS), which should alleviate findings relative to Federal Financial Management System Requirements and 
Federal Accounting Standards. 
 
 
This report is intended solely for the information and use of USMS’s management, DOJ Office of the Inspector 
General, OMB, U.S. Government Accountability Office, and the U.S. Congress; it is not intended to be and should 
not be used by anyone other than these specified parties. 
 
 
COTTON & COMPANY LLP 
 




                                                    
Catherine L. Nocera, CPA, CISA 
Partner 
 
November 8, 2011 
Alexandria, Virginia 




                                                       - 34 -
U.S. DEPARTMENT OF JUSTICE


UNITED STATES MARSHALS SERVICE



    PRINCIPAL FINANCIAL STATEMENTS

          AND RELATED NOTES


      See Independent Auditors’ Report on Financial Statements




                              - 35 -
This page left intentionally blank.
	




              - 36 -
                                                          U.S. Department of Justice 

                                                       United States Marshals Service

                                                         Consolidated Balance Sheets

                                                      As of September 30, 2011 and 2010


Dollars in Thousands                                                                       2011            2010

ASSETS (Note 2)
   Intragovernmental
        Fund Balance with U.S. Treasury (Note 3)                             $       562,246      $     684,686
        Accounts Receivable (Note 4)                                                 168,560            149,713
        Other Assets (Note 7)                                                         15,506             17,212
  Total Intragovernmental                                                            746,312            851,611

   Accounts Receivable (Note 4)                                                            35                 47
   Inventory and Related Property (Note 5)                                              3,060              2,739
   General Property, Plant and Equipment, Net (Note 6)                                264,246            257,937
   Advances and Prepayments                                                                 -                 17
   Other Assets (Note 7)                                                                  184                184
Total Assets                                                                 $     1,013,837      $   1,112,535


LIABILITIES (Note 8)
   Intragovernmental
        Accounts Payable                                                     $         31,314     $       26,177
        Accrued Federal Employees' Compensation Act Liabilities                        15,912             15,725
        Other Liabilities (Note 10)                                                    26,609             24,344
   Total Intragovernmental                                                             73,835             66,246

   Accounts Payable                                                                  354,200            406,268
   Actuarial Federal Employees' Compensation Act Liabilities                          86,365             83,490
   Accrued Payroll and Benefits                                                       33,239             30,525
   Accrued Annual and Compensatory Leave Liabilities                                  43,940             42,138
   Contingent Liabilities (Note 11)                                                        -             17,000
   Capital Lease Liabilities (Note 9)                                                      -                946
Total Liabilities                                                            $      591,579       $    646,613


NET POSITION
   Unexpended Appropriations                                                 $       257,093      $     328,900
   Cumulative Results of Operations                                                  165,165            137,022
Total Net Position                                                           $      422,258       $    465,922

Total Liabilities and Net Position                                           $     1,013,837      $   1,112,535




United States Marshals Service
The accompanying notes are an integral part of these financial statements.


                                                            - 37 -
                                                            U.S. Department of Justice 

                                                          United States Marshals Service

                                                       Consolidated Statements of Net Cost 

                                             For the Fiscal Years Ended September 30, 2011 and 2010


Dollars in Thousands

                                          Gross Costs                                    Less: Earned Revenues                      Net Cost of
                         Intra-            With the                              Intra-         With the                            Operations
             FY       governmental          Public               Total        governmental       Public                Total         (Note 12)

Goal 1:     2011      $        6,484     $           -       $        6,484   $          -        $            -   $           -    $       6,484
            2010      $        5,159     $           -       $        5,159   $          -        $            -   $           -    $       5,159

Goal 2:     2011              30,396                 -               30,396              -                     -               -           30,396
            2010               4,872                 -                4,872              -                     -               -            4,872

Goal 3:     2011             546,964           2,627,882          3,174,846         1,581,441              2,519        1,583,960        1,590,886
            2010             523,823           2,492,351          3,016,174         1,511,198              2,905        1,514,103        1,502,071

Total       2011      $     583,844      $   2,627,882       $   3,211,726    $   1,581,441      $        2,519    $   1,583,960    $   1,627,766
            2010      $     533,854      $   2,492,351       $   3,026,205    $   1,511,198      $        2,905    $   1,514,103    $   1,512,102



Goal 1    Prevent Terrorism and Promote the Nation's Security
Goal 2    Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People
Goal 3    Ensure the Fair and Efficient Administration of Justice




United States Marshals Service
The accompanying notes are an integral part of these financial statements.


                                                                   - 38 -
                                                       U.S. Department of Justice 

                                                     United States Marshals Service

                                          Consolidated Statements of Changes in Net Position 

                                        For the Fiscal Years Ended September 30, 2011 and 2010


          Dollars in Thousands                                                         2011               2010

          Unexpended Appropriations
            Beginning Balances                                               $     328,900      $     222,502

              Budgetary Financing Sources
                Appropriations Received                                            1,142,388          1,190,039
                Appropriations Transferred-In/Out                                    388,191            393,936
                Other Adjustments                                                     (2,285)                 -
                Appropriations Used                                               (1,600,101)        (1,477,577)

              Total Budgetary Financing Sources                                    (71,807)           106,398

              Unexpended Appropriations                                      $     257,093      $     328,900

          Cumulative Results of Operations
            Beginning Balances                                               $     137,022      $     132,920

              Budgetary Financing Sources
                Appropriations Used                                                1,600,101          1,477,577

              Other Financing Sources
                Transfers-In/Out Without Reimbursement                                  162                186
                Imputed Financing from Costs Absorbed
                  by Others (Note 13)                                                55,646             38,441

              Total Financing Sources                                            1,655,909          1,516,204

              Net Cost of Operations                                             (1,627,766)        (1,512,102)
              Net Change                                                             28,143              4,102
              Cumulative Results of Operations                               $     165,165      $     137,022

          Net Position                                                       $     422,258      $     465,922




United States Marshals Service
The accompanying notes are an integral part of these financial statements.


                                                            - 39 -
                                                          U.S. Department of Justice 

                                                        United States Marshals Service

                                                Combined Statements of Budgetary Resources

                                           For the Fiscal Years Ended September 30, 2011 and 2010


          Dollars in Thousands                                                                    2011              2010

          Budge tary Resource s

             Unobligated Balance, Brought Forward, October 1                             $     133,375     $      75,661

             Recoveries of Prior Year Unpaid Obligations                                        64,819            66,898

             Budget Authority
                 Appropriations Received                                                      1,142,388         1,190,039
                 Spending Authority from Offsetting Collections
                      Earned
                          Collected                                                           1,576,541         1,592,758
                          Change in Receivables from Federal Sources                             16,620           (39,937)
                      Change in Unfilled Customer Orders
                          Advance Received                                                       (3,869)            4,475
                          Without Advance from Federal Sources                                    6,998           (18,314)
             Subtotal Budget Authority                                                        2,738,678         2,729,021

             Nonexpenditure Transfers, Net, Actual                                             388,191           393,936

             Permanently not Available                                                           (2,285)              -

          Total Budge tary Resource s (Note 14)                                          $   3,322,778     $   3,265,516



          Status of Budgetary Resources

             Obligations Incurred
                 Direct                                                                  $    1,622,322    $    1,569,307
                 Reimbursable                                                                 1,610,059         1,562,834
                      Total Obligations Incurred (Note 14)                                    3,232,381         3,132,141
             Unobligated Balance - Available
                 Apportioned                                                                    57,730            97,391
                      Total Unobligated Balance - Available                                     57,730            97,391
             Unobligated Balance not Available                                                  32,667            35,984

          Total Status of Budgetary Re sources                                           $   3,322,778     $   3,265,516

          Change in Obligated Balance

             Obligated Balance, Net - Brought Forward, October 1
                 Unpaid Obligations                                                      $      708,551    $      634,587
                 Less Uncollected Customer Payments from Federal Sources                        165,214           223,465
                      Total Unpaid Obligated Balance, Net - Brought Forward, October 1          543,337           411,122
             Obligations Incurred, Net                                                        3,232,381         3,132,141
             Less Gross Outlays                                                               3,227,503         2,991,279
             Less Recoveries of Prior Year Unpaid Obligations, Actual                            64,819            66,898
             Change in Uncollected Customer Payments from Federal Sources                       (23,618)           58,251

             Obligated Balance, Net - End of Period
                 Unpaid Obligations                                                            648,610           708,551
                 Less Uncollected Customer Payments from Federal Sources                       188,832           165,214
                     Total Unpaid Obligated Balance , Ne t - End of Pe riod              $    459,778      $    543,337

          Net Outlays
             Gross Outlays                                                               $    3,227,503    $    2,991,279
             Less Offsetting Collections                                                      1,572,672         1,597,233

          Total Ne t Outlays (Note 14)                                                   $   1,654,831     $   1,394,046


United States Marshals Service
The accompanying notes are an integral part of these financial statements.


                                                               - 40 -
                                                            U.S. Department of Justice 

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted 


Note 1. Summary of Significant Accounting Policies

          A. Reporting Entity
          The United States Marshals Service (USMS) is an entity of the Department of Justice (DOJ)
          and functions to facilitate the following DOJ strategic goals as presented in the DOJ Strategic
          Plan:
               “Prevent Terrorism and Promote the Nation’s Security”
               “Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the
                      American People”
               “Ensure the Fair and Efficient Administration of Justice”
          The financial statements of the USMS have been prepared to reflect the activity of these core
          functions from operations in all 94 Districts and Headquarters.
          The USMS receives funding needed to support its programs through Congressional
          appropriations. Both annual and multi-year appropriations are used, within statutory limits,
          for operating and capital expenditures. The USMS appropriations include Salaries and
          Expenses and Construction. The USMS also receives an appropriation transfer from the
          Administrative Office of the U.S. Courts (AOUSC) for court security. The USMS also has a
          Revolving Fund called the Justice Prisoner and Alien Transportation System (JPATS). The
          Federal Prisoner Detention program is entirely funded through a reimbursable agreement
          with the Office of the Federal Detention Trustee (OFDT).
          B. Basis of Presentation
          These financial statements have been prepared from the books and records of the USMS in
          accordance with United States generally accepted accounting principles issued by the Federal
          Accounting Standards Advisory Board (FASAB) and presentation guidelines in the Office of
          Management and Budget (OMB) Circular A-136, Financial Reporting Requirements. These
          financial statements are different from the financial reports prepared pursuant to OMB
          directives, which are used to monitor and control the use of USMS budgetary resources. To
          ensure that the USMS financial statements are meaningful at the entity level and to enhance
          reporting consistency within the Department, Other Assets and Other Liabilities as defined
          by OMB Circular A-136 have been disaggregated on the balance sheet. These include
          Advances and Prepayments, Accrued Federal Employees’ Compensation Act Liabilities,
          Accrued Payroll and Benefits, Accrued Annual and Compensatory Leave Liabilities,
          Contingent Liabilities, and Capital Lease Liabilities.
          C. Basis of Consolidation
          The consolidated/combined financial statements include the accounts of the USMS. All
          significant proprietary intra-entity transactions and balances have been eliminated in
          consolidation. The Statements of Budgetary Resources are combined statements for Fiscal
          Years 2011 and 2010, and as such, intra-entity transactions have not been eliminated.

United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 41 -
                                                            U.S. Department of Justice 

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted 


Note 1. Summary of Significant Accounting Policies (continued)
          D. Basis of Accounting
          Transactions are recorded on the accrual and budgetary bases of accounting. Under the
          accrual basis, revenues are recorded when earned and expenses are recorded when incurred,
          regardless of when cash is exchanged. Under the budgetary basis, however, funds
          availability is recorded based upon legal considerations and constraints. As a result, certain
          line items on the proprietary financial statements may not equal similar line items on the
          budgetary financial statements.
          E. Non-Entity Assets
          Non-entity assets are comprised of deposit funds, which temporarily hold receipts for service
          of process fees and seized assets of pending civil cases.
          F. Fund Balance with U.S. Treasury
          Fund Balance with U.S. Treasury (FBWT) is the aggregate amount of the entity's accounts
          with the U.S. Treasury for which the entity is authorized to make expenditures and pay
          liabilities. FBWT also includes Other Fund Types (deposit funds). These are non-entity
          assets for which the entity is not authorized to make expenditures and pay liabilities. The
          Revolving Fund is a separate account involving reimbursement for JPATS prisoner
          movements.
          G. Accounts Receivable
          The USMS expects an immaterial amount of uncollectible Accounts Receivable based upon
          data from previous years. Most of the Accounts Receivable are due from other Federal
          agencies. As a result, an allowance for doubtful accounts was not established. Accounts
          Receivable written off are a result of management’s specific identification of amounts
          determined to be uncollectible.
          H. Inventory and Related Property
          Operating inventory includes equipment and supplies used for the repair of airplanes. The
          USMS utilizes the first-in, first-out (FIFO) method as the basis for valuation of these items.
          I. General Property, Plant, and Equipment
          Acquisitions of $25 and over ($100 for airplanes and leasehold improvements) are
          capitalized and depreciated/amortized based on the historical cost using the straight-line
          method over the estimated useful lives of the assets, which range from 5 to 25 years. Other
          equipment is expensed when purchased or included in inventory if used for the repair of
          airplanes. Normal repairs and maintenance are expensed as incurred.
          Total capital lease obligations are determined by calculating the present value of the lease
          payments at the inception of the lease. The interest rate used is the nominal discount rate in
          Appendix C of OMB Circular A-94, Guidelines and Discount Rates for Benefit-Cost
          Analysis of Federal Programs, at the inception of the lease.

United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 42 -
                                                            U.S. Department of Justice 

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted 


Note 1. Summary of Significant Accounting Policies (continued)
       J. Advances and Prepayments
          Advances and Prepayments consist of: (a) intragovernmental advances provided to Federal
          Prison Industries, Inc. for the equipping of vehicles and equipment and (b) travel advances
          issued to Federal employees for relocation travel costs.
          K. Liabilities
          Liabilities represent the amount of monies, or other resources, that are likely to be paid by the
          USMS as the result of a transaction or event that has already occurred. However, no liability
          can be paid by the USMS absent proper budget authority. Liabilities for which an
          appropriation has not been enacted are classified as liabilities not covered by budgetary
          resources, and there is no certainty that corresponding future appropriations will be enacted.
          The USMS maintains liabilities with the Department of the U.S. Treasury for deposit funds,
          which temporarily hold receipts for service of process fees and seized assets of pending civil
          cases. These are included as a part of Other Liabilities on the Balance Sheet.
          L. Contingencies and Commitments
          The USMS is party to various administrative proceedings, legal actions, and claims. The
          balance sheet includes an estimated liability for those legal actions where management and
          the Chief Counsel consider adverse decisions “probable” and amounts are reasonably
          estimable. Legal actions where management and the Chief Counsel consider adverse
          decisions “probable” or “reasonably possible” and the amounts are reasonably estimable are
          disclosed in Note 11, Contingencies and Commitments. However, there are cases where
          amounts have not been accrued or disclosed because the amounts of the potential loss cannot
          be estimated or the likelihood of an unfavorable outcome is considered “remote”.
          M. Annual, Sick, and Other Leave
          Accrued Annual and Compensatory Leave Liabilities are expected to be paid from future
          years' appropriations. Federal employees' annual leave is accrued as it is earned, and the
          accrual is reduced annually for actual leave taken and increased for leave earned. Each year,
          the accrued annual leave balance is adjusted to reflect the latest pay rates. Sick leave is
          expensed as taken.
          N. Interest on Late Payments
          The USMS on occasion incurs interest penalties on late payments. All such interest penalties
          are paid to the respective vendor in accordance with the guidelines mandated by the Prompt
          Payment Act, (P.L. 97-177), as amended.
          O. Retirement Plans
          With few exceptions, employees hired before January 1, 1984 are covered by the Civil
          Service Retirement System (CSRS) and employees hired on or after that date are covered by
          the Federal Employees Retirement System (FERS).

United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 43 -
                                                            U.S. Department of Justice 

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted 


Note 1. Summary of Significant Accounting Policies (continued)
       For employees covered by the CSRS, the USMS contributes 7.0% of the employee's gross
       pay for normal retirement or 7.5% for law enforcement retirement. For employees covered
       by the FERS, the USMS contributes 11.7% of the employee's gross pay for regular
       employees, and 25.7% of the employee's gross pay for law enforcement retirement. All
       employees are eligible to contribute to the Federal Thrift Savings Plan (TSP). For those
       employees covered by the FERS, a TSP account is automatically established, and the USMS
       is required to contribute an additional 1.0% of gross pay to this account and match employee
       contributions up to an additional 4.0% of gross pay. No matching contributions are made to
       the TSP accounts established by the CSRS employees. The USMS does not report CSRS or
       FERS assets, accumulated plan benefits, or unfunded liabilities, if any, which may be
       applicable to its employees. Such reporting is the responsibility of the Office of Personnel
       Management (OPM).
          P. Federal Employee Compensation Benefits
          Federal Employees’ Compensation Act (FECA) provides income and medical cost protection
          to cover Federal civilian employees injured on the job, employees who have incurred a
          work-related occupational disease, and beneficiaries of employees whose death is attributable
          to a job-related injury or occupational disease. The total FECA liability consists of an
          actuarial and an accrued portion as discussed below.
          Actuarial Liability: The U.S. Department of Labor (DOL) calculates the liability of the
          Federal Government for future compensation benefits, which includes the expected liability
          for death, disability, medical, and other approved costs. The liability is determined using the
          paid-losses extrapolation method calculated over the next 37-year period. This method
          utilizes historical benefit payment patterns related to a specific incurred period to predict the
          ultimate payments related to that period. The projected annual benefit payments are
          discounted to present value. The resulting Federal Government liability is then distributed by
          agency. The Department’s portion of this includes the estimated future cost of death
          benefits, workers’ compensation, medical, and miscellaneous cost for approved
          compensation cases for its employees. The Department’s liability is further allocated to the
          component reporting entities on the basis of actual payments made to the FECA Special
          Benefits Fund (SBF) for the three prior years as compared to the total Department’s
          payments made over the same period.
          The FECA actuarial liability is recorded for reporting purposes only. This liability
          constitutes an extended future estimate of cost, which will not be obligated against budgetary
          resources until the fiscal year in which the related funds are billed to the USMS. The cost
          associated with this liability may not be met by the USMS without further appropriation
          action.
          Accrued Liability: The accrued FECA liability owed to the DOL is the difference between
          the FECA benefits paid by the FECA SBF and the agency’s actual cash payments to the
          FECA SBF. For example, the FECA SBF will pay benefits on behalf of an agency through
          the current year. However, most agencies’ actual cash payments to the FECA SBF for the
United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 44 -
                                                            U.S. Department of Justice 

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted 


Note 1. Summary of Significant Accounting Policies (continued)
       current fiscal year will reimburse the FECA SBF for benefits paid through a prior fiscal year.
       The difference between these two amounts is the accrued FECA liability.
          Q. Intragovernmental Activity
          Intragovernmental costs and exchange revenue represent transactions made between two
          reporting entities within the Federal Government. Costs and earned revenues with the public
          represent exchange transactions made between the reporting entity and a non-Federal entity.
          The classification of revenue or cost as “intragovernmental” or “with the public” is defined
          on a transaction-by-transaction basis. The purpose of this classification is to enable the
          Federal Government to prepare consolidated financial statements, not to match public and
          intragovernmental revenue with the costs incurred to produce public and intragovernmental
          revenue.
          R. Revenues and Other Financing Sources
          The USMS receives funding needed to support its programs through appropriations.
          Appropriations are recognized as a financing source when the funding is appropriated. The
          USMS also reports revenue earned for services performed on a reimbursable basis with other
          Federal agencies and components of the DOJ. The revenue for these services is earned when
          the work is performed. Moreover, the USMS reports appropriations transferred from other
          Federal entities as a financing source.
          S. 	Earmarked Funds
          Statement of Federal Financial Accounting Standards (SFFAS) No. 27, Identifying and
          Reporting Earmarked Funds defines ‘earmarked funds’ as being financed by specifically
          identified revenues, often supplemented by other financing sources, which remain available
          over time. These specifically identified revenues and other financing sources are required by
          statute to be used for designated activities, benefits, or purposes, and must be accounted for
          separately from the Federal Government’s general revenues. The three required criteria for
          an earmarked fund are:
                    1.	 A statute committing the Federal Government to use specifically identified
                        revenues and other financing sources only for designated activities, benefits, or
                        purposes;
                    2.	 Explicit authority for the earmarked fund to retain revenues and other financing
                        sources not used in the current period for future use to finance the designated
                        activities, benefits, or purposes; and
                    3.	 A requirement to account for and report on the receipt, use, and retention of the
                        revenues and other financing sources that distinguishes the earmarked fund from
                        the Federal Government’s general revenues.
          At the USMS, there are no funds that meet the definition of an earmarked fund.


United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 45 -
                                                            U.S. Department of Justice 

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted 


Note 1. Summary of Significant Accounting Policies (continued)
          T. Allocation Transfer of Appropriations
          The USMS is a party to allocation transfers with another federal agency as a receiving (child)
          entity. Allocation transfers are legal delegations by one department of its authority to obligate
          budget authority and outlay funds to another department. Generally, all financial activity
          related to these allocation transfers (e.g., budget authority, obligations, outlays) is reported in
          the financial statements of the parent entity, from which the underlying legislative authority,
          appropriations and budget apportionments are derived. An exception to this general rule
          affecting the USMS includes the funds transferred from the Judicial Branch to the USMS for
          court security costs. Per OMB guidance, the USMS will report all activity relative to these
          allocation transfers in the USMS financial statements.
          The USMS uses these allocation transfers to pay for costs associated with the protective
          guard services – Court Security Officers at United States courthouses and other facilities
          housing Federal court operations. These costs include their salaries (paid by contracts),
          equipment, and supplies. This transfer is performed on an annual basis.
          U. Tax Exempt Status
          As an agency of the Federal Government, the USMS is exempt from all income taxes
          imposed by any governing body whether it is a Federal, state, commonwealth, local, or
          foreign government.
          V. Use of Estimates
          The preparation of financial statements requires management to make certain estimates and
          assumptions that affect the reported amounts of assets and liabilities and the reported
          amounts of revenue and expenses during the reporting period. Actual results could differ
          from those estimates.
          W. Reclassifications
          The FY 2010 financial statements were reclassified to conform to the FY 2011 Departmental
          financial statement presentation requirements. The reclassifications had no material effect on
          total assets, liabilities, net position, change in net position or budgetary resources as
          previously reported.
          X. Subsequent Events
          Subsequent events and transactions occurring after September 30, 2011 through the date of
          the auditors’ opinion have been evaluated for potential recognition or disclosure in the
          financial statements. The date of the auditors’ opinion also represents the date that the
          financial statements were available to be issued.




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 46 -
                                                            U.S. Department of Justice 

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted 


Note 2. Non-Entity Assets

              As of September 30, 2011 and 2010
                                                                                     2011             2010
              Intragovernmental
                Fund Balance with U.S. Treasury                              $    12,071          $     7,974
                  Total Non-Entity Assets                                         12,071                7,974
                  Total Entity Assets                                          1,001,766            1,104,561
                  Total Assets                                               $ 1,013,837          $ 1,112,535


Note 3. Fund Balance with U.S. Treasury

               As of September 30, 2011 and 2010
                                                                                      2011            2010
               Fund Balances
                 Revolving Funds                                                 $      33,882    $    30,803
                 General Funds                                                         516,293        645,909
                 Other Fund Types                                                       12,071          7,974
                  Total Fund Balances with U.S. Treasury                         $     562,246    $   684,686

               Status of Fund Balances
                 Unobligated Balance - Available                                 $      57,730    $    97,391
                 Unobligated Balance - Unavailable                                      32,667         35,984
                 Obligated Balance not yet Disbursed                                   459,778        543,337
                 Other Funds (With)/Without Budgetary Resources                         12,071          7,974
                   Total Status of Fund Balances                                 $     562,246    $   684,686

Other Funds (With)/Without Budgetary Resources and Other Fund Types include non-entity assets.
Non-entity assets are comprised of deposit funds, which temporarily hold receipts for service of
process fees and seized assets of pending civil cases.




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 47 -
                                                            U.S. Department of Justice 

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted 


Note 4. Accounts Receivable

               As of September 30, 2011 and 2010
                                                                                  2011                2010
               Intragovernmental
                 Accounts Receivable                                          $    168,560        $ 149,713

               With the Public
                Accounts Receivable                                                     35               47
                  Total Accounts Receivable                                   $    168,595        $ 149,760

Intragovernmental accounts receivable primarily consists of reimbursable revenue with OFDT.

Note 5. Inventory and Related Property

              As of September 30, 2011 and 2010
                                                                                  2011                2010
              Operating Materials and Supplies
               Held for Current Use                                          $       3,060        $     2,739




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 48 -
                                                            U.S. Department of Justice 

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted 



Note 6. General Property, Plant and Equipment, Net

     As of September 30, 2011
                                                                Acquisition   Accumulated     Net Book
                                                                  Cost        Depreciation      Value     Useful Life
     Construction in Progress                                   $   40,485    $        -      $ 40,485       N/A
     Buildings, Improvements, and Renovations                        3,422         (3,422)          -      12 years
     Aircraft                                                       27,327        (13,285)       14,042   7-25 years
     Vehicles                                                       30,142        (20,622)        9,520   5-10 years
     Equipment                                                      45,913        (25,163)       20,750   5-15 years
     Assets Under Capital Lease                                     10,727        (10,727)          -      20 years
     Leasehold Improvements                                        418,080       (238,631)      179,449    12 years
     Total                                                      $ 576,096     $ (311,850)     $ 264,246




     As of September 30, 2010
                                                                Acquisition   Accumulated     Net Book
                                                                  Cost        Depreciation      Value     Useful Life
     Construction in Progress                                   $   38,419    $        -      $ 38,419       N/A
     Buildings, Improvements, and Renovations                        3,422         (3,422)          -      12 years
     Aircraft                                                       27,327        (11,540)       15,787   7-25 years
     Vehicles                                                       27,647        (19,244)        8,403   5-10 years
     Equipment                                                      43,460        (22,924)       20,536   5-15 years
     Assets Under Capital Lease                                     10,727        (10,190)          537    20 years
     Leasehold Improvements                                        385,191       (210,936)      174,255    12 years
     Total                                                      $ 536,193     $ (278,256)     $ 257,937


The USMS purchased capitalized property from Federal sources and from the Public in the amounts
of $23,236 and $24,371, respectively, for the fiscal year ended September 30, 2011 and $24,187 and
$17,798, respectively, for the fiscal year ended September 30, 2010.
The USMS has no restrictions on the use or convertibility of general PP&E.




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                   - 49 -
                                                            U.S. Department of Justice 

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted 


Note 7. Other Assets

              As of September 30, 2011 and 2010
                                                                                     2011                 2010
              Intragovernmental
                Advances and Prepayments                                     $        15,506      $        17,212

              Other Assets With the Public                                               184                  184
               Total Other Assets                                            $        15,690      $        17,396

Other Assets With the Public is comprised of a collection of historical items such as jewelry, badges,
and a carpet. The collection was appraised in November 2002 to provide the USMS with a basis for
these items.

Note 8. Liabilities not Covered by Budgetary Resources

     As of September 30, 2011 and 2010
                                                                                      2011                 2010
     Intragovernmental
       Accrued FECA Liabilities                                                  $      15,912        $      15,725
       Other Unfunded Employment Related Liabilities                                        77                   91
         Total Intragovernmental                                                        15,989               15,816

     With the Public
      Actuarial FECA Liabilities                                                        86,365               83,490
      Accrued Annual and Compensatory Leave Liabilities                                 43,940               42,138
      Contingent Liabilities (Note 11)                                                     -                 17,000
        Total With the Public                                                          130,305              142,628
        Total Liabilities not Covered by Budgetary Resources                           146,294              158,444
        Total Liabilities Covered by Budgetary Resources                               445,285              488,169
        Total Liabilities                                                        $     591,579        $     646,613

Liabilities not Covered by Budgetary Resources result from the receipt of goods and services, or the
occurrence of eligible events, for which appropriations, revenues, or other financing sources
necessary to pay the liabilities have not yet been made available through Congressional
appropriation.




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 50 -
                                                            U.S. Department of Justice 

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted 


Note 9. Leases

          As of September 30, 2011 and 2010
          Capital Leases                                                         2011                     2010

          Summary of Assets Under Capital Lease
            Land and Buildings                                              $       10,727            $        10,727
            Accumulated Amortization                                               (10,727)                   (10,190)
             Total Assets Under Capital Lease (Note 6)                      $          -              $           537


The USMS had one capital lease for an aircraft hangar in Oklahoma City, Oklahoma, which expired
in FY 2011 and will not be renewed. The remaining lease obligation for the aircraft hangar was
$946 as of September 30, 2010.

     Future Capital Lease Payments Due
                                                                                                            Land and
     Fiscal Year                                                                                            Buildings
       FY 2011 Net Capital Lease Liabilities                                                              $          -
       FY 2010 Net Capital Lease Liabilities                                                              $              946

                                                                                         2011                    2010
     Net Capital Lease Liabilities Covered by Budgetary Resources                   $             -       $              946


The USMS has significant operating leases with the U.S. General Services Administration for the
rental of office space and with commercial vendors for the use of aircraft. The USMS does not have
any future noncancelable operating leases.




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 51 -
                                                            U.S. Department of Justice 

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted 


Note 10. Other Liabilities

     As of September 30, 2011 and 2010
                                                                                               2011               2010
     Intragovernmental
       Employer Contributions and Payroll Taxes Payable                                    $     11,908       $     9,902
       Other Post-Employment Benefits Due and Payable                                               194               149
       Other Unfunded Employment Related Liabilities                                                 77                91
       Advances from Others                                                                       2,359             6,228
       Liability for Deposit Funds, Clearing Accounts and Undeposited
         Collections                                                                             12,071             7,974
         Total Intragovernmental                                                                 26,609            24,344
         Total Other Liabilities                                                           $     26,609       $    24,344


Non-current liabilities consist of future employee related expenses, such as accrued retirement
contributions, life insurance, and retiree health benefits.

Note 11. Contingencies and Commitments
Contingencies include various administrative proceedings, legal actions, and claims related to
contract disputes and employee and prisoner claims; see Note 1.L for more details. For legal actions
where management and the Chief Counsel consider adverse decisions “probable” or “reasonably
possible” and the amounts are reasonably estimable, information is disclosed below. The amounts as
of September 30, 2011 and 2010 are presented in the following table.

                                                                   Accrued             Estimated Range of Loss
                                                                   Liabilities         Lower            Upper
     As of September 30, 2011

             Probable                                              $      -        $       -              $      -
             Reasonably Possible                                                         5,000                10,000

     As of September 30, 2010

             Probable                                             $ 17,000         $ 17,000               $ 17,000

             Reasonably Possible                                                      5,000                 10,000





United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 52 -
                                                                         U.S. Department of Justice 

                                                                       United States Marshals Service

                                                                      Notes to the Financial Statements

                                                                  Dollars in Thousands, Except as Noted 



Note 12. Net Cost of Operations by Suborganization

    For the Fiscal Year Ended September 30, 2011
                                                                                        Suborganizations
                                                             Justice Prisoner
                                                                and Alien                             Federal           All
                                                              Transportation          Court          Prisoner          Other
                                                                  System             Security        Detention         Funds       Eliminations       Consolidated

    Goal 1: Prevent Terrorism and Promote the Nation's Security

      Gross Cost                                             $            -      $         -     $          -      $      6,484 $          -      $           6,484
      Net Cost of Operations                                              -                -                -             6,484            -                  6,484

    Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People

      Gross Cost                                                          -                -                -            30,396            -                 30,396
      Net Cost of Operations                                              -                -                -            30,396            -                 30,396

    Goal 3: Ensure the Fair and Efficient Administration of Justice

      Gross Cost                                                       60,547          387,973         1,484,911       1,244,300        (2,885)           3,174,846
      Less: Earned Revenue                                             65,370              -           1,484,911          36,564        (2,885)           1,583,960
      Net Cost of Operations                                           (4,823)         387,973               -         1,207,736           -              1,590,886

    Net Cost of Operations                                   $         (4,823) $       387,973 $            -      $   1,244,616 $         -      $       1,627,766


    For the Fiscal Year Ended September 30, 2010
                                                                                        Suborganizations
                                                             Justice Prisoner
                                                                and Alien                             Federal           All
                                                              Transportation          Court          Prisoner          Other
                                                                  System             Security        Detention         Funds       Eliminations       Consolidated

    Goal 1: Prevent Terrorism and Promote the Nation's Security

      Gross Cost                                             $            -      $         -     $          -      $      5,159 $          -      $           5,159
      Net Cost of Operations                                              -                -                -             5,159            -                  5,159

    Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People

      Gross Cost                                                          -                -                -             4,872            -                  4,872
      Net Cost of Operations                                              -                -                -             4,872            -                  4,872

    Goal 3: Ensure the Fair and Efficient Administration of Justice

      Gross Cost                                                      115,839          384,981         1,365,000       1,184,942       (34,588)           3,016,174
      Less: Earned Revenue                                            116,490              -           1,365,000          67,201       (34,588)           1,514,103
      Net Cost of Operations                                             (651)         384,981               -         1,117,741           -              1,502,071

    Net Cost of Operations                                   $           (651) $       384,981 $            -      $   1,127,772 $         -      $       1,512,102




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                              - 53 -
                                                            U.S. Department of Justice 

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted 



Note 13. Imputed Financing from Costs Absorbed by Others
Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e. non-reimbursed and
under-reimbursed) portion of the full costs of goods and services received by the USMS from a
providing entity that is not part of the U.S. Department of Justice. In accordance with SFFAS No.
30, Inter-Entity Cost Implementation Amending SFFAS 4, Managerial Cost Accounting Standards
and Concepts, the material Imputed Inter-Departmental financing sources recognized by the USMS
are the cost of benefits for the Federal Employees Health Benefits Program (FEHB), the Federal
Employees’ Group Life Insurance Program (FEGLI), the Federal Pension plans that are paid by
other Federal entities, and any un-reimbursed payments made from the Treasury Judgment Fund on
behalf of the USMS. The Treasury Judgment Fund was established by the Congress and funded at
31 U.S.C. 1304 to pay in whole or in part the court judgments and settlement agreements negotiated
by the Department on behalf of agencies, as well as certain types of administrative awards.
Interpretation of Federal Financial Accounting Standards Interpretation No. 2, Accounting for
Treasury Judgment Fund Transactions, requires agencies to recognize liabilities and expenses when
unfavorable litigation outcomes are probable and the amount can be estimated and will be paid by
the Treasury Judgment Fund.
SFFAS No. 5, Accounting for Liabilities of the Federal Government, requires that employing
agencies recognize the cost of pensions and other retirement benefits during their employees’ active
years of service. SFFAS No. 5 requires OPM to provide cost factors necessary to calculate cost.
OPM actuaries calculate the value of pension benefits expected to be paid in the future, and then
determine the total funds to be contributed by and for covered employees, such that the amount
calculated would be sufficient to fund the projected pension benefits. For employees covered by
CSRS, the cost factors are 30.1% of basic pay for regular, 51.1% law enforcement officers, 23.5%
regular offset, and 45.6% law enforcement officers offset. For employees covered by Federal
Employees Retirement System (FERS), the cost factors are 13.8% of basic pay for regular and
29.8% for law enforcement officers.
The cost to be paid by other agencies is the total calculated future costs, less employee and employer
contributions. In addition, the cost of other retirement benefits, which include health and life
insurance that are paid by other Federal entities, must also be recorded.
Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4, Managerial Cost
Accounting Concepts and Standards for the Federal Government, are the unreimbursed portion of
the full costs of goods and services received by the USMS from a providing entity that is part of
DOJ. Recognition is required for those transactions determined to be material to the receiving
entity. The determination of whether the cost is material requires considerable judgment based on
the specific facts and circumstances of each type of good or service provided. SFFAS No. 4 also
states that costs for broad and general support need not be recognized by the receiving entity, unless
such services form a vital and integral part of the operations or output of the receiving entity. Costs
are considered broad and general if they are provided to many, if not all, reporting components and
not specifically related to the receiving entity’s output. The USMS does not have any imputed intra-
departmental costs to be recognized.


United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 54 -
                                                            U.S. Department of Justice 

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted 


Note 13. Imputed Financing from Costs Absorbed by Others (continued)

           For the Fiscal Years Ended September 30, 2011 and 2010
                                                                                       2011                 2010

           Imputed Inter-Departmental Financing
             Treasury Judgment Fund                                                $        8,416       $         1,563
             Health Insurance                                                              28,496                25,166
             Life Insurance                                                                   103                    95
             Pension                                                                       18,631                11,617
               Total Imputed Inter-Departmental                                    $       55,646       $        38,441


Note 14. Information Related to the Statement of Budgetary Resources
Apportionment Categories of Obligations Incurred:

                                                                                                                   Total
                                                                     Direct            Reimbursable             Obligations
                                                                    Obligations         Obligations              Incurred

     For the Fiscal Year Ended September 30, 2011
       Obligations Apportioned Under
         Category A                                             $      1,593,791       $    1,610,059       $      3,203,850
         Category B                                                       28,531                  -                   28,531
       Total                                                    $      1,622,322       $    1,610,059       $      3,232,381

     For the Fiscal Year Ended September 30, 2010
       Obligations Apportioned Under
         Category A                                             $      1,569,307       $    1,562,834       $      3,132,141
         Category B                                                          -                    -                      -
       Total                                                    $      1,569,307       $    1,562,834       $      3,132,141

The apportionment categories are determined in accordance with the guidance provided in Part 4
“Instructions on Budget Execution” of OMB Circular A-11, Preparation, Submission and Execution
of the Budget. Category A represents resources apportioned for calendar quarters. Category B
represents resources apportioned for other time periods; for activities, projects, and objectives or for
combination thereof.




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 55 -
                                                            U.S. Department of Justice 

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted 


Note 14. Information Related to the Statement of Budgetary Resources (continued)

Status of Undelivered Orders:
Undelivered Orders (UDO) represent the amount of goods and/or services ordered, which have not
been actually or constructively received. This amount includes any orders which may have been
prepaid or advanced but for which delivery or performance has not yet occurred.

              As of September 30, 2011 and 2010
                                                                              2011                    2010

              UDO Obligations Unpaid                                     $      217,540           $    232,071
              UDO Obligations Prepaid/Advanced                                   15,506                 17,229
               Total UDO                                                 $      233,046           $    249,300

Legal Arrangements Affecting Use of Unobligated Balances:
Unobligated balances represent the cumulative amount of budget authority that is not obligated and
that remains available for obligation based on annual legislative requirements and other enabling
authorities, unless otherwise restricted. The use of unobligated balances is restricted based on
annual legislation requirements and other enabling authorities. Funds are appropriated on an annual,
multi-year, and no-year basis. Appropriated funds shall expire on the last day of availability and are
no longer available for new obligations. Unobligated balances in unexpired fund symbols are
available in the next fiscal year for new obligations unless some restrictions had been placed on
those funds by law. Amounts in expired fund symbols are not available for new obligations, but
may be used to adjust previously established obligations.
Statement of Budgetary Resources vs. the Budget of the United States Government:
The reconciliation as of September 30, 2011 is not presented, because the submission of the Budget
of the United States Government for FY 2013, which presents the execution of the FY 2011 budget,
occurs after publication of these financial statements. The Department of Justice Budget Appendix
can be found on the OMB website (http://www.whitehouse.gov/omb/budget) and will be available in
early February 2012.




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 56 -
                                                            U.S. Department of Justice 

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted 


Note 14. Information Related to the Statement of Budgetary Resources (continued)

     For the Fiscal Year Ended September 30, 2010:
       (Dollars in Millions)
                                                                    Budgetary          Obligations           Net
                                                                    Resources           Incurred            Outlays

     Statement of Budgetary Resources (SBR)                     $         3,266    $          3,132     $        1,394

     Funds not Reported in the Budget
       Expired Funds                                                       (38)                 (15)                 -
       USMS Court Security Funds                                          (418)                (398)              (380)

       Rounding                                                              (2)                  (1)                 -

     Budget of the United States Government                     $         2,808    $          2,718     $        1,014


The Court Security Funds are transfer appropriations from the Judiciary Branch (See Note 1.T).
These transfers are accomplished through Nonexpenditure Transfer Authorizations.




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 57 -
                                                            U.S. Department of Justice 

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted 


Note 15. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
Statement of Financing)

 For the Fiscal Years Ended September 30, 2011 and 2010
                                                                                          2011                2010
 Resources Used to Finance Activities

    Budgetary Resources Obligated
      Obligations Incurred                                                           $     3,232,381      $    3,132,141
      Less: Spending Authority from Offsetting Collections
              and Recoveries                                                               1,661,109           1,605,880
      Obligations Net of Offsetting Collections and Recoveries                             1,571,272           1,526,261
      Net Obligations                                                                      1,571,272           1,526,261

    Other Resources
       Transfers In/Out Without Reimbursement                                                    162                 186
       Imputed Financing from Costs Absorbed by Others (Note 13)                              55,646              38,441
       Net Other Resources Used to Finance Activities                                         55,808              38,627
 Total Resources Used to Finance Activities                                                1,627,080           1,564,888

 Resources Used to Finance Items not Part of the Net Cost of
    Operations
       Net Change in Budgetary Resources Obligated for Goods, Services,
           and Benefits Ordered but not Yet Provided                                           19,383           (53,365)
       Resources That Fund Expenses Recognized in Prior Periods (Note 16)                     (17,014)           (1,250)
       Resources That Finance the Acquisition of Assets                                       (47,928)          (42,574)
 Total Resources Used to Finance Items not Part of the Net Cost
    of Operations                                                                             (45,559)          (97,189)

 Total Resources Used to Finance Net Cost of Operations                              $     1,581,521      $    1,467,699

 Components of Net Cost of Operations That Will not Require
   or Generate Resources in the Current Period

    Components That Will Require or Generate Resources
      in Future Periods (Note 16)                                                    $            4,876   $          6,002

    Depreciation and Amortization                                                             38,387             37,266
    Revaluation of Assets or Liabilities                                                       1,730              1,048
    Other                                                                                      1,252                 87
 Total Components of Net Cost of Operations That Will not
    Require or Generate Resources in the Current Period                                       46,245             44,403

 Net Cost of Operations                                                              $     1,627,766      $    1,512,102




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 58 -
                                                            U.S. Department of Justice 

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted 


Note 16. Explanation of Differences Between Liabilities not Covered by Budgetary Resources
and Components of Net Cost of Operations Requiring or Generating Resources in Future
Periods

Liabilities that are not covered by realized budgetary resources and for which there is not certainty
that budgetary authority will be realized, such as the enactment of an appropriation, are considered
liabilities not covered by budgetary resources. These liabilities totaling $146,294 and $158,444 on
September 30, 2011 and 2010, respectively, are discussed in Note 8, Liabilities not Covered by
Budgetary Resources. Decreases in these liabilities result from current year budgetary resources that
were used to fund expenses recognized in prior periods. Increases in these liabilities represent
unfunded expenses that were recognized in the current period. These increases along with the
change in the portion of exchange revenue receivables from the public, which are not considered
budgetary resources until collected, represent components of current period net cost of operations
that will require or generate budgetary resources in future periods. The changes in liabilities not
covered by budgetary resources and receivables generating resources in future periods are comprised
of the following:

     For the Fiscal Years Ended September 30, 2011 and 2010
                                                                                             2011            2010
     Resources that Fund Expenses Recognized in Prior Periods
      Other
        Decrease in Other Unfunded Employment Related Liabilities                        $        (14)   $       -
        Decrease in Contingent Liabilities                                                    (17,000)        (1,250)
          Total Other                                                                         (17,014)        (1,250)
          Total Resources that Fund Expenses Recognized in Prior Periods                 $    (17,014)   $    (1,250)

     Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods
      Increase in Accrued Annual and Compensatory Leave Liabilities              $      1,802       $          3,207
      (Increase)/Decrease in Exchange Revenue Receivable from the Public                    12                    99
      Other
        Increase in Actuarial FECA Liabilities                                          2,875                  2,176
        Increase in Accrued FECA Liabilities                                              187                    503
        Increase in Other Unfunded Employment Related Liabilities                         -                       17
          Total Other                                                                   3,062                  2,696
          Total Components of Net Cost of Operations That Will Require
            or Generate Resources in Future Periods                              $      4,876       $          6,002




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 59 -
This page left intentionally blank.
	




              - 60 -
U.S. DEPARTMENT OF JUSTICE


UNITED STATES MARSHALS SERVICE



       REQUIRED SUPPLEMENTARY

            INFORMATION


            (UNAUDITED)





                - 61 -
This page left intentionally blank.
	




              - 62 -
                                                                                 U.S. Department of Justice 

                                                                                United States Marshals Service

                                                                         Required Supplementary Information 

                                                                     Combining Statement of Budgetary Resources 

                                                                        Broken Down by Major Appropriation 

                                                                     For the Fiscal Year Ended September 30, 2011 



Dollars in Thousands                                                                                                                                                      2011


                                                                                                                                         Justice Prisoner
                                                                                                                                            and Alien
                                                                                     Salaries &            Court                          Transportation
                                                                                      Expense             Security      Construction          System              Total

Budgetary Resources

    Unobligated Balance, Brought Forward, October 1                              $         77,295     $        19,476   $      10,631    $          25,973    $      133,375

    Recoveries of Prior Year Unpaid Obligations                                            47,890              12,445           2,077                2,407            64,819

    Budget Authority
        Appropriations Received                                                          1,125,763                -            16,625                  -            1,142,388
        Spending Authority from Offsetting Collections
            Earned
               Collected                                                                 1,510,818                -               -                 65,723          1,576,541
               Change in Receivables from Federal Sources                                   16,950                -               -                   (330)            16,620
            Change in Unfilled Customer Orders
               Advance Received                                                             (3,869)               -               -                    -               (3,869)
               Without Advance from Federal Sources                                          6,998                -               -                    -                6,998
    Subtotal Budget Authority                                                            2,656,660                -            16,625               65,393          2,738,678

    Nonexpenditure Transfers, Net, Actual                                                   (6,820)           395,883            (872)                 -             388,191

    Permanently not Available                                                               (2,252)               -               (33)                 -               (2,285)

Total Budgetary Resources                                                        $      2,772,773     $     427,804     $      28,428    $         93,773     $    3,322,778



Status of Budgetary Resources

    Obligations Incurred
         Direct                                                                  $       1,177,422    $       418,523   $      26,377    $             -      $     1,622,322
         Reimbursable                                                                    1,550,338                -               -                 59,721          1,610,059
             Total Obligations Incurred                                                  2,727,760            418,523          26,377               59,721          3,232,381
    Unobligated Balance - Available
         Apportioned                                                                       19,279               3,964             536               33,951            57,730
             Total Unobligated Balance - Available                                         19,279               3,964             536               33,951            57,730
    Unobligated Balance not Available                                                      25,734               5,317           1,515                  101            32,667

Total Status of Budgetary Resources                                              $      2,772,773     $     427,804     $      28,428    $         93,773     $    3,322,778

Change in Obligated Balance

    Obligated Balance, Net - Brought Forward, October 1
         Unpaid Obligations                                                      $         527,443    $       132,491   $      34,653    $          13,964    $       708,551
         Less: Uncollected Customer Payments from Federal Sources                          156,080                -               -                  9,134            165,214
             Total Unpaid Obligated Balance, Net - Brought Forward, October 1              371,363            132,491          34,653                4,830            543,337
    Obligations Incurred, Net                                                            2,727,760            418,523          26,377               59,721          3,232,381
    Less: Gross Outlays                                                                  2,737,148            407,018          20,694               62,643          3,227,503
    Less: Recoveries of Prior Year Unpaid Obligations, Actual                               47,890             12,445           2,077                2,407             64,819
    Change in Uncollected Customer Payments from Federal Sources                           (23,948)               -               -                    330            (23,618)

    Obligated Balance, Net - End of Period
         Unpaid Obligations                                                               470,165             131,550           38,260               8,635           648,610
         Less: Uncollected Customer Payments from Federal Sources                         180,028                 -                -                 8,804           188,832
            Total Unpaid Obligated Balance, Net - End of Period                  $       290,137      $      131,550    $      38,260    $           (169)    $     459,778

Net Outlays
    Gross Outlays                                                                $       2,737,148    $       407,018   $      20,694    $          62,643    $     3,227,503
    Less: Offsetting Collections                                                         1,506,949                -               -                 65,723          1,572,672

Total Net Outlays                                                                $      1,230,199     $     407,018     $      20,694    $          (3,080)   $    1,654,831




United States Marshals Service
                                                                                  - 63 -
                                                                                 U.S. Department of Justice 

                                                                                United States Marshals Service

                                                                             Required Supplementary Information 

                                                                         Combining Statement of Budgetary Resources 

                                                                            Broken Down by Major Appropriation 

                                                                         For the Fiscal Year Ended September 30, 2010 


Dollars in Thousands                                                                                                                                                       2010


                                                                                                                                          Justice Prisoner
                                                                                                                                             and Alien
                                                                                                                                           Transportation
                                                                                Salaries & Expense      Court Security   Construction          System              Total

Budgetary Resources

    Unobligated Balance, Brought Forward, October 1                             $            43,468     $        7,037   $        1,115   $          24,041    $       75,661

    Recoveries of Prior Year Unpaid Obligations                                              50,755             11,625            1,738               2,780            66,898

    Budget Authority
        Appropriations Received                                                            1,155,414               -             34,625                 -            1,190,039
        Spending Authority from Offsetting Collections
            Earned
               Collected                                                                   1,475,438               -                -               117,320          1,592,758
               Change in Receivables from Federal Sources                                    (39,124)              -                -                  (813)           (39,937)
            Change in Unfilled Customer Orders
               Advance Received                                                                4,475               -                -                   -                4,475
               Without Advance from Federal Sources                                          (18,314)              -                -                   -              (18,314)
    Subtotal Budget Authority                                                              2,577,889               -             34,625             116,507          2,729,021

    Nonexpenditure Transfers, Net, Actual                                                     (5,201)          399,137              -                   -             393,936

    Permanently not Available                                                                    -                 -                -                   -                   -

Total Budgetary Resources                                                       $         2,666,911     $     417,799    $      37,478    $        143,328     $    3,265,516



Status of Budgetary Resources

    Obligations Incurred
         Direct                                                                 $          1,144,137    $      398,323   $       26,847   $             -      $     1,569,307
         Reimbursable                                                                      1,445,480               -                -               117,354    $     1,562,834
             Total Obligations Incurred                                                    2,589,617           398,323           26,847             117,354          3,132,141
    Unobligated Balance - Available
         Apportioned                                                                         49,942             11,940            9,582              25,927            97,391
             Total Unobligated Balance - Available                                           49,942             11,940            9,582              25,927            97,391
    Unobligated Balance not Available                                                        27,352              7,536            1,049                  47            35,984

Total Status of Budgetary Resources                                             $         2,666,911     $     417,799    $      37,478    $        143,328     $    3,265,516

Change in Obligated Balance

    Obligated Balance, Net - Brought Forward, October 1
         Unpaid Obligations                                                     $            466,546    $      125,632   $       25,920   $          16,489    $       634,587
         Less: Uncollected Customer Payments from Federal Sources                            213,518               -                -                 9,947            223,465
             Total Unpaid Obligated Balance, Net - Brought Forward, October 1                253,028           125,632           25,920               6,542            411,122
    Obligations Incurred, Net                                                              2,589,617           398,323           26,847             117,354          3,132,141
    Less: Gross Outlays                                                                    2,477,965           379,839           16,376             117,099          2,991,279
    Less: Recoveries of Prior Year Unpaid Obligations, Actual                                 50,755            11,625            1,738               2,780             66,898
    Change in Uncollected Customer Payments from Federal Sources                              57,438               -                -                   813             58,251

    Obligated Balance, Net - End of Period
         Unpaid Obligations                                                                 527,443            132,491           34,653              13,964           708,551
         Less: Uncollected Customer Payments from Federal Sources                           156,080                -                -                 9,134           165,214
            Total Unpaid Obligated Balance, Net - End of Period                 $          371,363      $     132,491    $      34,653    $          4,830     $     543,337

Net Outlays
    Gross Outlays                                                               $          2,477,965    $      379,839   $       16,376   $         117,099    $     2,991,279
    Less: Offsetting Collections                                                           1,479,913               -                -               117,320          1,597,233

Total Net Outlays                                                               $          998,052      $     379,839    $      16,376    $           (221)    $    1,394,046




United States Marshals Service

                                                                                     - 64 -
U.S. DEPARTMENT OF JUSTICE


UNITED STATES MARSHALS SERVICE



            APPENDIX




              - 65 -
This page left intentionally blank.
	




              - 66 -
                                                                 APPENDIX


              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


      The Office of the Inspector General (OIG) provided a draft of the
Independent Auditors’ Report on Internal Control over Financial Reporting to
the United States Marshals Service (USMS). USMS’s response is
incorporated in the Independent Auditors’ Report on Internal Control over
Financial Reporting of this final report. The following provides the OIG
analysis of the response and summary of actions necessary to close the
report.

Recommendation Number:

1.	   Resolved. The USMS concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that the USMS has coordinated efforts
      among the Audit Coordination and Remediation team, Financial
      Services Division, and USMS program offices to finalize and
      consistently implement policies and procedures for recording
      obligations and deobligations in a timely manner, and that the USMS
      has ensured that accruals for goods and services provided but not paid
      for are properly calculated, recorded timely, and adequately
      supported.

2.	   Closed. The status of corrective action related to this
      recommendation will be tracked through Recommendation No. 2 of the
      FY 2010 Annual Financial Statement Audit Report (OIG Report
      No. 11-10).

3.	   Resolved. The USMS concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that the USMS has reviewed and
      updated policies and procedures for the use of purchase cards to pay
      recurring charges, including procedures to ensure that accruals are
      recorded for goods and services received, and that there is an
      adequate audit trail to support undelivered order and accounts payable
      balances.

4.	   Closed. The status of corrective action related to this
      recommendation will be tracked through Recommendation No. 5 of the
      FY 2010 Annual Financial Statement Audit Report (OIG Report
      No. 11-10).




                                   - 67 -
